<html>
<title> - GETTING U.S. AID TO COLOMBIA</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




                      GETTING U.S. AID TO COLOMBIA

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                            OCTOBER 12, 2000

                               __________

                           Serial No. 106-276

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
75-059 DTP                  WASHINGTON : 2001
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
 Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; DC area 
                  (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                     COMMITTEE ON GOVERNMENT REFORM

                     DAN BURTON, Indiana, Chairman
BENJAMIN A. GILMAN, New York         HENRY A. WAXMAN, California
CONSTANCE A. MORELLA, Maryland       TOM LANTOS, California
CHRISTOPHER SHAYS, Connecticut       ROBERT E. WISE, Jr., West Virginia
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
STEPHEN HORN, California             PAUL E. KANJORSKI, Pennsylvania
JOHN L. MICA, Florida                PATSY T. MINK, Hawaii
THOMAS M. DAVIS, Virginia            CAROLYN B. MALONEY, New York
DAVID M. McINTOSH, Indiana           ELEANOR HOLMES NORTON, Washington, 
MARK E. SOUDER, Indiana                  DC
JOE SCARBOROUGH, Florida             CHAKA FATTAH, Pennsylvania
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
MARSHALL ``MARK'' SANFORD, South     DENNIS J. KUCINICH, Ohio
    Carolina                         ROD R. BLAGOJEVICH, Illinois
BOB BARR, Georgia                    DANNY K. DAVIS, Illinois
DAN MILLER, Florida                  JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
LEE TERRY, Nebraska                  THOMAS H. ALLEN, Maine
JUDY BIGGERT, Illinois               HAROLD E. FORD, Jr., Tennessee
GREG WALDEN, Oregon                  JANICE D. SCHAKOWSKY, Illinois
DOUG OSE, California                             ------
PAUL RYAN, Wisconsin                 BERNARD SANDERS, Vermont 
HELEN CHENOWETH-HAGE, Idaho              (Independent)
DAVID VITTER, Louisiana


                      Kevin Binger, Staff Director
                 Daniel R. Moll, Deputy Staff Director
                     James C. Wilson, Chief Counsel
                     Robert A. Briggs, Chief Clerk
                 Phil Schiliro, Minority Staff Director
                                 ------                                

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                    JOHN L. MICA, Florida, Chairman
BOB BARR, Georgia                    PATSY T. MINK, Hawaii
BENJAMIN A. GILMAN, New York         EDOLPHUS TOWNS, New York
CHRISTOPHER SHAYS, Connecticut       ELIJAH E. CUMMINGS, Maryland
ILEANA ROS-LEHTINEN, Florida         DENNIS J. KUCINICH, Ohio
MARK E. SOUDER, Indiana              ROD R. BLAGOJEVICH, Illinois
STEVEN C. LaTOURETTE, Ohio           JOHN F. TIERNEY, Massachusetts
ASA HUTCHINSON, Arkansas             JIM TURNER, Texas
DOUG OSE, California                 JANICE D. SCHAKOWSKY, Illinois
DAVID VITTER, Louisiana

                               Ex Officio

DAN BURTON, Indiana                  HENRY A. WAXMAN, California
           Sharon Pinkerton, Staff Director and Chief Counsel
                   Charley Diaz, Congressional Fellow
                           Ryan McKee, Clerk
                    Sarah Despres, Minority Counsel




                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 12, 2000.................................     1
Statement of:
    Burton, Hon. Dan, a Representative in Congress from the State 
      of Indiana.................................................    12
    Ford, Jess T., Associate Director, International Relations 
      and Trade Issues, National Security and International 
      Affairs Division, Government Accounting Office; Rand Beers, 
      Assistant Secretary, Bureau of International Narcotics, 
      Department of State; Brigadier General Keith Huber, 
      Director of Operations, U.S. Southern Command; and Ana 
      Marie Salazar, Deputy Assistant Secretary for Defense Drug 
      Enforcement Policy and Support.............................    18
    Gilman, Hon. Benjamin, a Representative in Congress from the 
      State of New York..........................................    15
    Miller, Andrew, acting advocacy director for Latin America 
      and the Caribbean for Amnesty International................    77
Letters, statements, etc., submitted for the record by:
    Beers, Rand, Assistant Secretary, Bureau of International 
      Narcotics, Department of State, prepared statement of......    38
    Ford, Jess T., Associate Director, International Relations 
      and Trade Issues, National Security and International 
      Affairs Division, Government Accounting Office, prepared 
      statement of...............................................    21
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................     6
    Miller, Andrew, acting advocacy director for Latin America 
      and the Caribbean for Amnesty International, prepared 
      statement of...............................................    80
    Sheridan, Brian, Assistant Secretary of Defense, prepared 
      statement of...............................................    46

 
                      GETTING U.S. AID TO COLOMBIA

                              ----------                              


                       THURSDAY, OCTOBER 12, 2000

                  House of Representatives,
Subcommittee on Criminal Justice, Drug Policy, and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:15 p.m., in 
room 2154, Rayburn House Office Building, Hon. John L. Mica 
(chairman of the subcommittee) presiding.
    Present: Representatives Mica, Ose, Mink, Cummings, 
Kucinich, Tierney, Turner, and Schakowsky.
    Staff present: Sharon Pinkerton, staff director and chief 
counsel; Charley Diaz, congressional fellow; Ryan McKee, clerk; 
Sarah Despres and David Rapallo, minority counsels; and Earley 
Green, minority assistant clerk.
    Mr. Mica. I would like to call the Subcommittee on Criminal 
Justice, Drug Policy, and Human Resources to order. Apologize 
for those that have been waiting, particularly our first panel 
of witnesses. But we did have a vote that was scheduled for 
1:30, and then they added another vote, so we were delayed. I 
appreciate everyone's forbearance.
    The order of business for the hearing today will be that 
I'll start with an opening statement in order to get the 
hearing underway, and we will be joined by our minority and 
majority members. And then we'll hear from our first panel. I 
think we have three panels. I believe we have three panels 
today. Today's hearing deals with the subject of getting U.S. 
assistance to Colombia. And this afternoon the subcommittee 
will, once again, examine the U.S. response to the growing 
crisis in Colombia.
    In July, the Congress passed a $1.3 billion supplemental 
aid package to support Plan Colombia. I voted for the package 
and the aid because U.S. assistance is absolutely critical to 
combating drug trafficking, and also to maintaining Colombia's 
democratic way of life. But I am very concerned that the 
Colombian people may not see any real help for months, even 
years to come, particularly as a result of the report that's 
going to be released today.
    My concerns stem from this administration's poor track 
record of delivering previously authorized counterdrug 
assistance, aid and equipment to Colombia. At this 
subcommittee's request, the General Accounting Office [GAO], 
examined the administration's effort to date, namely, those 
efforts of the Department of State and Department of Defense. 
What they found is not encouraging. As noted in the title of 
their draft report, U.S. assistance to Colombia will take years 
to produce results, this is a report that I have here, the 
prognosis for future aid delivery is dismal probably at best.
    As we enter the 21st century, our hemisphere is facing one 
of the greatest challenges to our national security as the 
situation in Colombia continues to deteriorate. Left unchecked, 
the narco-terrorist threat in Colombia has continued to spiral 
out of control and now threatens Latin America's oldest 
democracy as well as stability in the region. As the illegal 
drug trade continues to grow, it fuels narco-terrorism and 
undermines legitimate government institution, and also leads to 
increasing violence in this region. The impact of further 
destabilization of the region will have a devastating impact on 
our vital national security interests in that area.
    After years of pleading and pressure by House members, the 
administration finally submitted a Colombian aid proposal to 
Congress in February of this year. It arrived 7 months after 
General McCaffrey sounded the alarm, calling the situation an 
emergency. That's what's printed here, my staff printed, as I 
recall. He called it a flipping nightmare was his quote. And 4 
months after the Pastrana government submitted Plan Colombia, 
officially asking the United States for assistance.
    Because the U.S. response has been slow to materialize, 
Colombia now supplies some 80 percent of the world's cocaine, 
the vast majority of the heroin seized in the United States. 
Furthermore, over the last several years, there has been an 
explosion of coca cultivation in Colombia of the recent 
explosion of opium poppy cultivation in Colombia is equally 
disturbing. Through DEA's heroin signature analysis program, we 
know that Colombia, not the Far East, and I know this through 
scientific testing, accounts for 70 percent of the heroin 
seized on the streets of the United States. All of these facts 
point to Colombia as the center of gravity of the drug supply 
and line to the United States.
    But despite years of congressional pleas for counterdrug 
assistance to Colombia, countless hearings and intense 
congressional pressure, resources approved by Congress have 
failed to be provided to Colombia in both a timely and also in 
an effective manner.
    First, information sharing was denied in 1994, which, in 
fact, turned the situation there into chaos, as my colleague 
from California Steve Horn so aptly described. As you recall, 
as of May 1994--he said this in 1994--``the Department of 
Defense decided unilaterally to stop sharing real time 
intelligence regarding aerial traffic in drugs with Colombia 
and Peru. Now, as I understand it, that decision, which hasn't 
been completely resolved, has thrown diplomatic relations with 
the host countries into chaos.'' That was a comment by 
Congressman Steve Horn.
    What we'll have to do is recess the hearing. I've got 
votes. Apologize again. But we'll continue. I'll finish my 
opening statement and we'll hold the hearing in recess until we 
reconvene.
    [Recess.]
    Mr. Mica. If we could, I'd like to call the subcommittee 
back to order. Apologize again for the delay. It appears the 
subcommittee is having as much difficulty getting this hearing 
underway as the administration is in getting anti narcotics 
resources to Colombia.
    Let me continue, if I may, with my opening statement. I 
just cited the chaos that was created by the administration in 
stopping real-time intelligence sharing. In 1996 and 1997, when 
this administration decertified Colombia without a national 
interest waiver, it severely undermined the legitimate drug 
fighting efforts of General Serrano and the Colombian National 
Police, cutting off international military educational money 
and also critical equipment.
    Even worse, today the absence of U.S. intelligence sharing, 
due in part to the reduced air coverage after the forced 
closure of Howard Air Force base in Panama, our 
counternarcotics efforts in the region have been even further 
crippled. Without an adequate contingency plan, there now 
exists a gap in coverage as the new forward operating locations 
[FOL's] come on line, the Commander-in-Chief for the U.S. 
southern command testified at one of our hearings earlier that 
the Department of Defense can only cover 15 percent of key 
trafficking routes 15 percent of the time. In fact, it may be 
after the year 2002 before our anti-surveillance capability has 
been fully restored.
    The Congress passed a supplemental aid package in July to 
increase funding for counternarcotics work in Colombia. This 
wasn't the first time we pumped money into counternarcotics 
efforts in Colombia. Colombia received more than $300 million 
funding under the fiscal year 1999 supplemental spending bill 
passed when Dennis Hastert, now our speaker, was chairman of 
the drug policy responsibility in a previous subcommittee.
    Sadly, less than half of the equipment Congress funded in 
that bill has been delivered, or in fact is operational. This 
administration's poor track record was the subject of the GAO 
investigation which I just cited, and we'll hear more about it 
today. This report concluded that ``the United States has 
encountered long-standing problems in providing 
counternarcotics assistance to Colombian law enforcement and 
military agencies involved in counternarcotics activities.'' 
The report went on to say ``these problems continue.'' The 
report cites that the Department of State, ``has not provided 
enough financial or logistical support to the Colombian 
National Police Helicopter Program.''
    This administration has also resisted the congressional 
efforts to ensure that needed drug fighting equipment makes it 
to Colombia in a timely manner. The administration has fought 
the Congress for years on the Blackhawk utility helicopters for 
the Colombian National Police, and has a pathetic track record 
of delivering this type of assistance. And that type of 
assistance, incidentally, is the main part of the package, that 
$1.3 billion package, at least the anti-narcotics portion of 
it. In fact, even three helicopters, which account for the bulk 
of aid dollars in fiscal year 1999, when finally delivered to 
the Colombian National Police, sat idle for lack of proper 
floor armoring and ammunition.
    Despite this poor track record, this administration once 
again requested helicopters this time for the Colombian Armed 
Forces as the bulk of aid proposed in their proposal before the 
Congress this past February. Given the high cost of these 
assets, the poor delivery track record by the Department of 
State and the Office of International Narcotics Matters, I am 
deeply concerned about committing hundreds of millions of U.S. 
taxpayer dollars to a program that has not worked well in the 
past.
    As chairman of this subcommittee, however, I want to pursue 
programs that, in fact, have a proven track record of success.
    Complicating the equation is the increased activity by 
Colombian rebels, namely, more than 17,000 member narco- 
terrorist Army known as the FARC, and the 5,000-plus member 
ELN. These armies of insurgents now control nearly 40 percent 
of the Colombian countryside. The FARC Army has gone largely 
unchecked and is now expanding beyond Colombia's borders. I am 
deeply concerned about reports of FARC intrusions into 
neighboring countries. The rebels are heavily financed by the 
illegal drug trade and earned an estimated $600 million per 
year from illicit drug activity.
    And some of that also is outlined in this report that I 
think everyone needs to pay some attention to today. The basic 
tenet of this administration's aid package is to use the 
Colombian military and Colombian National Police to push into 
southern Colombia. I know it, you know it, and the rebels know 
it. We have been advertising this fact for over a year now. As 
a result, the rebels have done two things: they have fortified 
their defenses in the area in anticipation of the Colombian 
troops, and they are also exploring other areas of cultivation 
in and outside Colombia. When I asked about defensive 
countermeasure capability to ensure the safety of Colombian 
security forces and protect our investment, the State 
Department said they don't have definite proof of a surface-to-
air [SAM], missile threat in southern Colombia. But I can tell 
you that any organization that can build, as we saw just a few 
weeks ago, a submarine, pretty complex piece of equipment just 
a few miles from Bogota, capable of carrying an astonishing 200 
tons of cocaine, can certainly get their hands on surface to 
air missiles.
    One of the points that needs to continually be reemphasized 
to the American public is that Colombia matters. It matters 
both economically and it matters strategically. With 20 percent 
of the U.S. daily supply of crude and refined oil imports 
coming from that area and with the vitally important Panama 
Canal located just 150 miles to the north, the national 
security, and in fact, the economic implications and in fact, 
energy implications, which I think we're going to see in the 
next few days with the disruption in the Middle East, and now 
this disruption in this oil producing region, the implications 
to neighboring countries and to the United States are enormous. 
For all these reasons, the United States can ill afford further 
instability in this region also.
    Effective delivery of promised U.S. aid will likely make 
the difference between success and failure of Plan Colombia. 
And that responsibility falls squarely on the shoulders of the 
executive branch, the Department of State, DOD in particular. 
This subcommittee will continue to play a key role in ensuring 
that the U.S. counterdrug aid to Columbia is both sufficient, 
appropriate, and delivered in a timely manner.
    Finally, as we face this serious and growing challenge in 
Colombia, our vital national interests are undeniably at stake. 
Drug-related deaths, as we have had reported to this 
subcommittee, drug-related deaths now exceed homicides in the 
United States for the first time in our history. The flow of 
deadly high purity heroin and cocaine now flood our streets. 
The average beginning age of a heroin addict under the Clinton 
administration has dropped from age 25 to age 17. These are 
startling facts that I believe the fact that the influx of 
illegal drugs to the United States is our greatest social 
challenge, and most insidious national security threat. I know 
many of my colleagues on both sides of the aisle share this 
concern.
    The situation in Colombia requires immediate attention, but 
the execution of U.S. aid and assistance in Plan Colombia needs 
to be carefully considered, especially in light of this 
administration's past track record. This hearing will shed 
light on their past record as we look for ways to ensure more 
timely and effective delivery for future aid. The lives of 
hundreds of brave Colombians and the lives of countless 
Americans here at home are at stake. With those comments, I am 
pleased to recognize for the purpose of an opening statement, 
the ranking member, the gentlelady from Hawaii, Mrs. Mink.
    [The prepared statement of Hon. John L. Mica follows:]
    [GRAPHIC] [TIFF OMITTED] T5059.001
    
    [GRAPHIC] [TIFF OMITTED] T5059.002
    
    [GRAPHIC] [TIFF OMITTED] T5059.003
    
    Mrs. Mink. Thank you, Mr. Chairman. I am pleased that we're 
having this hearing today to learn about the administration's 
plans to implement the massive aid package to Colombia that 
Congress voted on earlier this year. It's absolutely clear that 
there is a crisis in Colombia. Colombia is now the world's 
leader in coca cultivation, and the source of 80 percent of the 
world's cocaine. At the same time, armed insurgence groups are 
increasingly involved in the drug trade, and the government 
doesn't have control over almost half of the country.
    All of this is against a backdrop of a country that has 
been fighting a civil war for decades. A war that has killed 
tens of thousands of people and displaced over a million. Media 
accounts of human rights abuses, kidnappings and internal 
refugees in Colombia have become all too common. The United 
States has an interest in seeing this situation in Colombia 
reverse itself. The drugs that are grown in Colombia end up on 
the streets of the United States.
    The DEA estimates that 75 percent of the heroin seized in 
the United States originates in Colombia. To this end, the U.S. 
Government has committed $1.3 billion to help the Colombian 
Government eradicate this drug trade. $1.3 billion is a lot of 
money. However, I am concerned that the aid we are providing in 
the form of military equipment training and personnel will 
actually get the United States more involved in the Colombian 
civil war than it will deal with the drug problem in the United 
States. This concern that I know many of the Members of 
Congress share must be taken seriously.
    The Department of State Inspector General conducted an 
audit of the aid programs in Colombia, administered by the 
State Department. One of the conclusions of that audit was that 
it was unclear whether the eradication program today has 
decreased the supply of drugs from Colombia and whether this 
program has had any impact on the U.S. drug market.
    This audit also found in the drugs have moved from one 
region in Colombia to another and that they now concentrated in 
southern Colombia. The Colombian Government has not allowed 
full scale access into this region. However the criticism has 
been made that even if there were a full scale eradication 
effort in southern Colombia, the drugs will just move somewhere 
else, such as Ecuador, Brazil or Peru. Sadly, this is now 
becoming a reality.
    According to a Washington Post article of October 1, right 
wing paramilitary groups as well as left wing insurgence groups 
from Colombia have already become a presence in the Ecuadoran 
border with Colombia. According to this article, the fighters 
from Colombia's right wing militias have been arrested for 
running extortion rings in Ecuador, and Colombia's largest 
rebel group, the FARC, easily cross the borders into Ecuador. 
It's imperative that we seriously consider the real possibility 
of unintended consequences of this aid package, specifically, 
that we move the drug problem from one area to another or from 
one country to another, and that the United States becomes 
increasingly involved in the civil war.
    I am concerned that there is evidence that these 
possibilities are in fact becoming realities. I thank the 
chairman for holding these important hearings today. I would 
like to thank him for agreeing to our request to invite Mr. 
Andrew Miller from Amnesty International to testify this 
afternoon. I look forward to all the testimony and the 
witnesses. Thank you very much.
    Mr. Mica. Thank the gentlelady. I am pleased now to 
recognize the gentleman from Maryland, Mr. Cummings.
    Mr. Cummings. Thank you, Mr. Chairman. I really appreciate 
your calling this hearing on getting U.S. aid to Colombia. From 
1996 to 2000, Departments of State and the Federals and the 
U.S. Agency for International Development have provided at 
least $761 million in counternarcotics assistance to Colombia. 
It is fitting, since Colombia is the world's leading producer 
of cocaine and has become the major source of heroin that has 
devastated my community in Baltimore. Unfortunately not only 
are large amounts of heroin coming into my district, but the 
purity has increased.
    According to the DEA's domestic monitoring program, during 
the timeframe of October to December 1999, the average purity 
of south American heroin purchased through DNP buys in 
Baltimore tested 13.3 percent higher than the national average 
for that same timeframe.
    The high purity of these drugs has led to overdoses and 
emergency room visits that have taken a real toll on the health 
care infrastructure of my community. I strongly believe that we 
must support efforts to stop drugs from coming into our 
country. However, stopping drug abuse addiction and its related 
crime requires a three-pronged approach. It must encompass 
clear balanced and adequately funded education prevention, 
treatment, and interdiction strategies.
    My constituents have voiced concern about the amount of 
funding that we are spending toward the interdiction efforts. I 
also believe that our investments in treatment have not been 
balanced. Despite our grave concerns regarding the lack of 
funding for drug treatment and allegations of human rights 
abuses and corruption by Colombia's military and police forces, 
I voted in favor of the supplemental appropriations bill that 
added to the overall U.S. contribution of $1.3 billion to 
assist Andreas Pastrana's $7.5 billion Plan Colombia.
    We were led to believe that after the United States anted 
up their portion, European nations and others would follow suit 
and largely fund critical economic and social programs. 
Unfortunately, that funding has not come forth.
    Mr. Chairman, we are dealing with a complex situation. 
Pastrana's government is fighting two major insurgence groups 
and a plethora of well-financed and technologically advanced 
drug trafficking organizations, a combination that has been 
deadly to both our nations. Moreover, members in the military 
forces have been accused of human rights abuses and corruption. 
The GAO report we are going to discuss today has raised more 
concerns for me. Although they believe that U.S. assistance has 
helped, they have also reported that there have been problems 
with planning, budgeting and implementation of the $1.3 
billion.
    Mr. Chairman, I am looking forward to the hearing today and 
to the testimony so that I can get a better understanding of 
how we can make our assistance to Colombia work as efficiently 
and effectively as possible. We must work to protect our 
children and families from the scourge of drug addiction and 
abuse. Thank you very much.
    Mr. Mica. Thank the gentleman. I would like to recognize 
the gentlelady from Illinois, Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman. I voted against 
Plan Colombia, and it's not because I am against helping 
Colombia. I would like to see us put more into strengthening 
the rule of law which help Colombian citizens and help promote 
a peace process there, and nor is it because I am against our 
taking aggressive and bold action against drugs abuse, but I 
think that the most effective and proven way to go is for us to 
spend more in the United States on the demand side as opposed 
to the supply side. But the real reason that I opposed the 
funding for Plan Colombia is the repeated evidence of human 
rights abuse and U.S. dollars going to oppress the people of 
Colombia.
    We have a GAO report that we're going to be discussing 
today. It confirms my initial concerns that, in essence, it 
says that Plan Colombia, in my interpretation, is nothing more 
than a plan to put all of our eggs in one flawed basket. The 
ONDCP warns us that growers are now using higher yielding 
varieties of coca leaf and have become more efficient in 
processing leaves into cocaine. In the past, our attacks on the 
drug supply resulted in an adaptation that left us with a more 
potent problem than we had before.
    Another problem that this report reveals is that Plan 
Colombia could simply result in American support for human 
rights abuses abroad. The report noted concerns expressed by 
U.S. Embassy officials that the Colombian National Police does 
not always provide documentation about its use of 
counternarcotics assistance. We're begging for trouble. There 
are many more problems with this effort that the report 
revealed. Colombia is not ready to handle their share of the 
management of the program. It may take years for Colombia to 
implement the systems and develop the staff necessary to take 
control. Moreover, Colombia has not raised its share of the 
funds necessary to successfully prosecute the plan.
    I want to call your attention to an article that was in the 
L.A. Times on October 11th that says that the massive U.S.-
backed antidrug offensive in Colombia is hitting major funding 
roadblocks with European countries refusing to ante up more 
than $2 billion, and the Colombians themselves aren't sure that 
they have the means to put up an additional $4 billion. The 
reluctance of international donors and the seeming inability of 
the Colombians to fund the $7.5 billion aid effort, ``leaves 
the American stepping up to the plate and everybody else 
walking away from it,'' said a senior Clinton administration 
official. If the Colombians and others don't come up with the 
money soon, the ambitious program could be limited to the $1.3 
billion and largely military assistance from the United States, 
which administration officials say cannot put more than a dent 
in the country's powerful drug trade.
    In Chicago, there was a hearing of what is called a 
tribunal of opinion that was conducted by the Center for 
International Human Rights at Northwestern School of Law on 
September 22nd and 23rd, with very prestigious members of our 
legal and human rights community as hearers of testimony. And 
I'll tell you I met with a number of people who lived in a 
small village of Santo Domingo where 7 children and 10 adults 
were murdered. It was 19 civilians killed and 25 others injured 
in Santo Domingo, Colombia on December 13, 1998. And there is 
credible evidence that U.S. Government funds, which were made 
available to the Colombian military, were responsible.
    Now, I want to tell you, I met with a mother who showed me 
pictures of her five children, three of whom are dead as a 
result of this bombing. This woman is not a terrorist, she's 
not a guerrilla, she is a woman living with her children in a 
village that probably was bombed as a result of U.S. aid to 
Colombia. I think we need to step back from this, figure out if 
we're really going to achieve the results that we want. I think 
we will not. And see if we want to be complicit in the kinds of 
atrocities that I think there is growing evidence is happening 
in Colombia using U.S. taxpayer dollars. I certainly don't want 
to be part of that.
    Thank you, Mr. Chairman.
    Mr. Mica. I thank the gentlelady. Additional opening 
statements? If there are no additional opening statements, Mrs. 
Mink moves that the record be left open for a period of 2 weeks 
for further submissions of statements. Without objection, so 
ordered. I am pleased now to recognize two individuals who 
really need no introduction but make up our first distinguished 
panel this afternoon. First is the chairman of our House 
Government Reform Committee, we're a subcommittee of the full 
committee, and that's the honorable Dan Burton from Indiana. 
And the second individual is the chairman of the House 
International Relations Committee, the gentleman from New York, 
Mr. Gilman. Pleased to recognize the Chair of our full 
committee first. I guess that would be the proper order. You're 
recognized and welcome, sir.

STATEMENT OF HON. DAN BURTON, A REPRESENTATIVE IN CONGRESS FROM 
                      THE STATE OF INDIANA

    Mr. Burton. Thank you very much, Chairman Mica. My daughter 
right now is in surgery and I've got to catch a plane, so I 
will submit my full statement for the record as well as 
exhibits that I would like to have shown, but I do have to 
leave. I would just like to make a couple of points that I 
think are extremely important. Chairman Gilman and you and I, 
Speaker Hastert for the past 4 or 5 years, have been working on 
the Colombian problem. And I think it's important that all the 
members of the subcommittee and anybody who's paying attention 
really understand the full scope of the problem. The human 
rights atrocities that have taken place down there, Ms. 
Schakowsky, are wrong. Those have not come at the hands of the 
Colombian National Police; it's been the Colombian military.
    One of the problems we have with Plan Colombia is that 
we're giving a disproportionate share of the money to the very 
people who have been perpetrating these human rights 
violations. We should be giving that money to the Colombian 
National Police.
    Now this was a decision of the administration and the State 
Department. I don't know why they're doing it.
    In addition to that, we're sending helicopters down there 
finally, and the people who know how to fly those helicopters 
are the Colombian National Police. The people who know how to 
maintain those helicopters are the Colombian National Police. 
Yet the overwhelming amount, a majority of the aid and 
equipment, is going down to the people who are perpetuating 
these human rights atrocities. I don't understand it.
    General Serrano and his successors have pledged to make 
sure that they fight this war in as humane a way as possible 
and protect the civilian population, but that's not what Plan 
Colombia is all about.
    Bogota, Colombia, is closer to us right now than it is to 
Mr. Ose's district. That's how close we're talking about.
    Mr. Cummings said a while ago that the problems in 
Baltimore are out of control. Some of his colleagues in the 
legislative branch of the city council say that one out of 
eight people are addicted to heroin. It is a national tragedy. 
We're losing 17,000 people a year to drug addiction. They're 
dying.
    Now, we saw just recently an overwhelming outpouring of 
concern about Firestone tires, 100 people died. And it's 
tragic, 100 people. 17,000 are dying a year from drug addiction 
and overdoses; and this is a major, major problem. We have to 
deal with the problem in Colombia as well as here.
    I'm for education, as you talked about, Mr. Cummings and 
Ms. Schakowsky. I'm for treatment centers. I think that's 
important, too. But you've got to go to the source. Can you 
imagine dealing with the people who had suffered from the 
Firestone tragedy by saying, we're going to help you folks out, 
but we're not going to deal with the production problem at 
Firestone. Of course, you have to go to the source of the 
problem. We have to go to the source of the problem in 
Colombia.
    The FARC guerrillas have sanctuary down there right now. 
They can go out and attack and kill people. They have taken the 
Colombian National Police and mayors down there, they have 
burned their wives and children alive. They have cut their 
heads off--talk about human rights violations--and they played 
soccer with them in the town square. They put their heads up on 
pipes to scare everybody to death. That's how bad the situation 
is.
    Now, you know there's a commercial in Indiana that I've 
seen where a guy is working on a transmission. And--not a 
transmission but an auto engine. He's got a Fram oil filter. He 
says, you know you can change your oil filter and save your 
engine. You can pay me now or pay me later. I really believe 
that if we don't deal with the Colombian tragedy and problem 
down there now, down there, we're going to rue the day we 
didn't.
    A couple of other things that ought to be thought about.
    The largest supplier of oil to the United States that we 
know is in an energy difficult situation right now is 
Venezuela. It's right on the border of Colombia. Just yesterday 
in--was it--where was it--in Ecuador, we believe, FARC 
guerrillas flew in there in a helicopter and took five 
civilians out and made them hostages for ransom. So they're now 
going beyond their borders. This whole area is a tinderbox down 
there. The people who are running the FARC guerrillas are 
Communists who have been working with Fidel Castro for 
training. This is not baloney. This is a fact. So we really 
have to deal with that problem down there.
    The Panama Canal which we used to defend with our military 
is defenseless now. The narcotic guerrillas know it is 150 
miles away. So we've got a problem with Venezuela as far as our 
oil supplies. The whole area down there is at risk. Mr. 
Pastrana, the President down there, has given sanctuary to the 
FARC guerrillas so they can go out and attack and go back in 
and be protected.
    We either help now or we're going to pay the price later. 
We're going to pay the price probably with more military 
expenses than we can visualize today. We may even have American 
troops down there, whether we want to or not. Certainly if we 
don't deal with it we're not going to stem the tide of heroin 
and cocaine coming into Baltimore, MD.
    So, yes, we need to educate. Yes, we need to have programs 
to rehabilitate people where we can. But we've got to go to the 
source and fight those people and stop the drug production. 
Because, if we don't, it's going to continue to come in here.
    You and I know that the way to get carriers of drugs is at 
to take an African American child in Baltimore or some place 
and they get him hooked and they make that kid the person who's 
going to carry the drugs and get other people hooked. So as 
long as the profitability is there and as long as the 
production is there down in Colombia, they're going to continue 
to do that. We've got to do something about it.
    Now, Mr. Beers, who is here from the State Department, the 
Plan Colombia sounded good. Not everything we wanted but it 
sounded good at the beginning. Then Chairman Gilman and I at 
the International Operations Committee about fell out of our 
chairs when we found out they were cutting back the number of 
helicopters down there. They're giving most of them to the 
military who we know are prepared to use them and who we know 
is violating the human rights. They're not giving to the CNP, 
and they're not going to get there until 2002.
    Now, they're going to tell you today they changed that. I'd 
like to know--I hope Mr. Beers will tell you why they're 
changing that timetable. But even if they change the timetable, 
they have to have competent pilots to fly those planes and 
mechanics to work on them, and they don't in the military. They 
do in the CNP. So the State Department and the administration 
in my opinion needs to rethink Plan Colombia, take into 
consideration human rights atrocities and violations and make 
sure we're putting the money and the equipment where it's going 
to do good as well as protecting those women and kids you're 
talking about down there.
    I'm sorry I didn't have time to go into my whole statement, 
but I think you got the gist of what I feel. Thank you very 
much.
    Mr. Mica. Thank you, Mr. Burton. Without objection his 
entire statement will be made part of the record, and we'll 
excuse you at this time.
    Pleased to recognize now the Chair of our International 
Relations Committee and also member of our panel, the gentleman 
from New York, Chairman Gilman.

STATEMENT OF HON. BENJAMIN GILMAN, A REPRESENTATIVE IN CONGRESS 
                   FROM THE STATE OF NEW YORK

    Mr. Gilman. Thank you, Chairman Mica, my colleagues. I want 
to thank you for conducting this extremely important hearing on 
a vital area, an area vital to our drug war and our Nation's 
policy on elimination of drug abuse.
    The Clinton administration has been given $1 billion in 
U.S. taxpayer dollars to help Colombia in our common struggle 
against illicit drugs, and yet there's an obvious lack of 
clarity and direction coming from the administration about our 
national policy at this critical point of implementation of our 
military aid to Plan Colombia.
    Uncertainty can spell serious trouble down the road for our 
vital national interests in Colombia. What we need from our 
policymakers is clarity and strong leadership. A clear, 
definable and achievable objective must be articulated 
regarding our U.S. policy in Colombia. The policy must be 
articulated in a manner in which the American people can 
readily understand it and, in turn, support it.
    Colombia's democratic survival from the onslaught of narco-
terrorism and the destruction of its massive cocaine and heroin 
production network are important goals in this vital national 
interest. We owe our young people and the democratic Colombia 
Government help in this common, two-prong fight which we cannot 
afford to lose. Once the American people understand fully 
understand these goals, we're going to have to convince them 
that we can and will achieve success in Colombia.
    We recently met with General Gilbar of the Colombian 
National Police, and he told us that he sees in sight the 
achievement of a goal of a drug-free Colombia. We've already 
done so in part by helping the Colombian National Police elite 
anti-drug unit do the drug fighting job themselves, without 
expending any American lives in this not-so-far-off land. Bear 
in mind Bogota is only 3 hours away from us from Miami, and 
what happens there can affect all of us here in our own Nation.
    Colombia does not want, and has never asked for, American 
blood to be shed on its battlefields as that beleaguered nation 
faces a potential ``narco state'' status.
    If, along with the rest of the world, especially Europe, we 
help them with appropriate aid, they can win. So let us be 
perfectly clear and let's not be fooled by that old ``it's 
another Vietnam'' canard some know is trying to sell to the 
American people.
    On the military front, the Colombians have only asked for 
training and received some of the mechanical means--
helicopters, for example, they don't want troops--to help them 
reach parts of their rugged countryside which is controlled by 
the narco-guerrillas and used in producing illicit drugs 
intended for use by Americans and by the European continent.
    Today, more than 80 percent of the cocaine that enters our 
Nation, 80 percent, along with 70 percent of the heroin sold or 
seized on our streets and destroying our youngsters comes from 
that remote, inaccessible area of Colombia. We must help them 
destroy those drugs so that in turn we know who is financing 
the self-sufficient insurgency that threatens their very own 
democracy.
    For years we've worked side by side with the elite anti-
drug unit of the Colombian National Police [CNP], to destroy 
the powerful Cali and Medillin drug cartels.
    Mr. Chairman I don't know if you had an opportunity to see 
the--there was a special documentary the other night. I thought 
it was very forceful. I hope that my committee will have an 
opportunity to see a replay of that. It really showed 
explicitly the millions of dollars that the drug lords were 
earning each and every day from this illicit trade.
    These courageous police officers who are fighting the drug 
war have suffered nearly 5,000 deaths in their war over a 10-
year period--5,000 officers killed. General Serrano, who 
recently retired, said he was sick of having to attend the 
funerals of his close associates.
    Just recently, newer organizations controlling 80 percent 
of the coca business from Colombia were taken out by the CNP, 
working with our own outstanding DEA officers. Just like in our 
Nation, drug fighting is a primary law enforcement function in 
Colombia. It's not a military function.
    With a few of the new, well-armed, high performance utility 
helicopters which we recently provided, these courageous drug-
fighting police, the CNP, have destroyed record-shattering 
areas of coca for cocaine, along with opium, essential for 
heroin production.
    As a result of these relatively inexpensive police efforts, 
compared to the billions in annual societal loss here from 
these illicit drugs coming from Colombia, we see record high 
prices for cocaine with very low purity on our streets today. 
We'll soon see the same disruption with Colombian heroin. This 
in turn will mean fewer American children will be able to buy 
and become addicted or overdose on these kind of deadly drugs.
    The Colombian drug traffickers are screaming loudly about 
the anti-drug police onslaught with their new drug-fighting 
equipment used against their illicit crops which they pay the 
narco-guerrilla insurgency so handsomely to protect. We're 
making major progress.
    The Peruvian Government confirms its progress in Colombian 
opium reduction, reports that the Colombian traffickers know is 
rapidly expanding opium production in several departments in 
that neighboring nation where it was unknown before. We need a 
Peruvian plan of attack as well for this administration and a 
better regional game plan or we'll be headed to failure as they 
move from one area to another.
    And we need, too, my colleagues, to combine this wise path 
of supporting the Colombian police in the fight against drugs. 
Those efforts will in turn help drain the swamp of the vast 
profits from illicit drugs which in turn finance that civil 
insurgency that is threatening Colombian democracy.
    I remember when Congressman Rangel and I visited Colombia 
many years ago. We visited the plaza in Bogota, and we saw the 
Supreme Court which had been burned down by the drug 
traffickers as they attacked the whole court system and were 
virtually holding hostage all of the judges, and they had to go 
in with tanks to get them free. These drug traffickers know no 
bounds. They go in every direction and attacking a government 
at its very vital organs is not beyond their means.
    We need to continue the wise path of supporting the 
Colombian police in the fight against drugs. Those efforts can 
help to fight the civil insurgency that threatens the very 
basis of Colombia.
    Our continued drug-fighting effort will level the playing 
field. It will also give the military in Colombia a chance to 
get its act together. Perhaps 1 day it will enable the military 
to fight the insurgency on an equal footing, consistent with 
respect for human rights just as the CNP anti-drug unit do.
    We were informed last week that, instead of the two new 
Blackhawks for the CNP that were designated in an emergency 
supplemental which we passed earlier this June with a strong 
vote in the House, that the administration will fund only one 
of those choppers. They tell us they will go back and properly 
reconfigure the six operational Blackhawk police choppers down 
there already, as they should have been originally, with the 
$96 million we provided in 1998.
    I will not support any reprogramming request to cut the 
CNP's Blackhawk allotment, and I urge our colleagues not to do 
the same. It runs counter to the emergency supplemental 
conference report explicit language and good common sense. The 
Colombian drug police who are performing the job need more 
Blackhawks, not less.
    The administration, after years of neglect and in its near 
panic about a narco state emerging in Colombia as yet another 
looming foreign policy failure, has finally moved to get 
support for Plan Colombia, which has the strong support of our 
Speaker and in committee.
    Mr. Chairman, I applaud you for your support of all of 
these efforts. We need to learn from the mistakes made in 
providing aid to our CNP allies and to get it right this time, 
and I look forward to hearing today from the administration 
witnesses with regard to that enormous challenge today.
    With regard to the concerns about human rights violations, 
I want to remind the committee that in more than 10 years of 
our Nation's assistance to the anti-drug police in Colombia 
there has been no credible evidence of any human rights abuse 
by the PLANTE, the CNP anti-drug unit.
    So, Mr. Chairman, again I thank you for this hearing and 
for focusing attention on what should be done in Colombia at 
this very important junction. Thank you.
    Mr. Mica. I thank you, Chairman Gilman; and I applaud your 
efforts. We also appreciate your testimony.
    You're also a member of this subcommittee and invite you to 
join the panel if you would. I also applaud you for your 
efforts to seek peace and resolution not only in this area 
under consideration today, Colombia. You've done an incredible 
job and been persistent for some 6 years now there and in the 
Mideast, and I know how frustrated you must feel today with 
both areas in a state of chaos. It concerns us all.
    But, again, we thank you; and I'll excuse you at this time.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Mica. Let me, if I may, call our second panel of 
witnesses today.
    They consist of Mr. Jess T. Ford, who's Associate Director 
of International Relations and Trade Issues with the General 
Accounting Office; the Honorable Rand Beers, who is the 
Assistant Secretary of the Bureau of International Narcotics 
under the State Department; Brigadier General Keith Huber, who 
is the Director of Operations for U.S. Southern Command.
    And although we have printed Mr. Brian Sheridan, Assistant 
Secretary of Defense, he has been called with the current 
crisis in the Mideast I believe to the White House; and we have 
Anna Marie Salazar, who is Deputy Assistant Secretary for 
Defense Drug Enforcement Policy and Support at DOD.
    If you all could come forward. This is, as you know, an 
investigations and oversight subcommittee of the House of 
Representatives. In that regard, we do swear in our witnesses. 
If you would stand. Raise your right hands, please.
    [Witnesses sworn.]
    Mr. Mica. The witnesses answered in the affirmative.
    We welcome the witnesses. We will be glad to hear your oral 
testimony.
    We're going to run the clock. Try to limit it to around 5 
minutes if we can. We do welcome any submissions to the 
subcommittee for the record, and the entire statement will be 
made part of the record upon request.
    With that, let me recognize first Mr. Jess T. Ford, 
Director of the International Affairs and Trade Issues Office 
of the General Accounting Office. Mr. Ford, you're recognized.

 STATEMENTS OF JESS T. FORD, ASSOCIATE DIRECTOR, INTERNATIONAL 
RELATIONS AND TRADE ISSUES, NATIONAL SECURITY AND INTERNATIONAL 
  AFFAIRS DIVISION, GOVERNMENT ACCOUNTING OFFICE; RAND BEERS, 
    ASSISTANT SECRETARY, BUREAU OF INTERNATIONAL NARCOTICS, 
DEPARTMENT OF STATE; BRIGADIER GENERAL KEITH HUBER, DIRECTOR OF 
   OPERATIONS, U.S. SOUTHERN COMMAND; AND ANA MARIE SALAZAR, 
DEPUTY ASSISTANT SECRETARY FOR DEFENSE DRUG ENFORCEMENT POLICY 
                          AND SUPPORT

    Mr. Ford. Congressman Mica, Congresswoman Mink and members 
of the subcommittee, I am pleased to be here today to discuss 
the work you requested on the counternarcotics efforts of the 
United States and Colombia. Today I will highlight the 
preliminary findings from our ongoing review on U.S. assistance 
to Colombia. We plan to issue or report early next week.
    I plan this morning this afternoon to discuss three broad 
issues: first, how the drug threat has changed in recent years; 
second, the problems the United States has had in providing its 
assistance to Colombia in the past; and, third, the challenges 
that the United States and Colombia face in reducing the 
illegal drug activities.
    In October 1999, the Colombian Government announced a $7.5 
billion plan known as Plan Colombia, which among other things 
proposes the reduction of cultivation, processing and the 
distribution of narcotics by 50 percent over the next 6 years. 
Colombia has pledged to provide about $4 billion to support the 
plan and called on the international community, including the 
United States, to provide the remaining $3.5 billion. To assist 
this effort, in July of this year, the United States agreed to 
provide about $860 million to Colombia for fiscal years 2000 
and 2001 in addition to the regular U.S. assistance program 
estimated at about $330 million for fiscal year 2000-2001. U.S. 
counternarcotics assistance to Colombia has doubled since 1999.
    Mr. Chairman, I'm not going to review the threat issue 
because it's already been discussed several times. It's 
commonly known that there's a major threat in Colombia. It is, 
in fact, a major producer of cocaine entering the United 
States.
    I think what I'll try to focus on is the two main issues 
related to our assistance effort. The United States has had 
longstanding problems in providing counternarcotics assistance 
to Colombian law enforcement and military agencies involved in 
counternarcotics activities. Although U.S.-provided assistance 
such as aircraft, boats and training has enhanced Colombian 
counternarcotics capabilities, it has sometimes been of limited 
utility because the United States did not provide spare parts 
or the funding necessary to operate and maintain them to the 
extent possible for conducting counternarcotics operations.
    Moreover, the U.S. Embassy has made little progress in 
implementing a plan to have the Colombian National Police 
assume more responsibility for the aerial eradication program 
which currently requires the assistance of costly U.S. 
contractors. U.S. Embassy officials also expressed concern that 
the National Police have not always provided documentation to 
show the use of some of the assistance.
    The United States and Colombian Governments face a number 
of management and financial challenges in implementing 
Colombia's strategy to reduce cultivation over the next 6 
years. Although both governments are taking actions to address 
the challenges, at this point the total cost and activities 
required to meet the plan's goals remain unknown, and 
significantly reducing drug activities may take several years.
    U.S. aid agencies, including the Department of State, 
Department of Defense and USAID, are still developing 
comprehensive plans for eradication and interdiction activities 
and alternative development programs. However, negotiating for 
the manufacture and delivery of major equipment, such as 
helicopters, is ongoing and staffing new programs in Colombia 
will take time. As a result, agencies do not expect to have 
many of the programs to support Plan Colombia in place until 
late 2001.
    Officials from State and DOD are now determining how the 
Blackhawk and Huey II helicopters mandated by the Congress for 
Colombia will be equipped and configured. They do not yet know 
if the funding plan for fiscal year 2000 and 2001 to support 
Plan Colombia will be sufficient. In addition, State officials 
have begun planning for funding in fiscal year 2002 and beyond 
to continue the plan. While estimates have not been completed, 
these officials have stated that substantial funding may be 
needed.
    Colombia is relying on international donors in addition to 
the United States to fund Plan Colombia. But much of the 
support has yet to materialize. To date, the Colombian 
Government has not shown that it has the detailed plans and 
funding necessary to achieve these goals.
    Colombia faces continuing challenges associated with its 
political and economic instability fostered by its longstanding 
insurgency and the need for the police and the military to 
comply with human rights standards.
    As evidenced by past U.S. counternarcotics assistance 
programs, the United States has not always provided the 
necessary support to operate and maintain the equipment to the 
extent possible to help counter the illegal drug activities. If 
these problems continue, the dramatic increase in U.S. support 
for Plan Colombia may not be used in the most effective way. At 
a minimum, if the United States and Colombia do not follow 
through with their commitments under Plan Colombia and the 
international donor community does not support appeals for 
additional assistance, Plan Colombia may not be able to succeed 
as envisioned.
    Mr. Chairman, that concludes my statement. I'll be happy to 
answer any questions.
    [The prepared statement of Mr. Ford follows:]
    [GRAPHIC] [TIFF OMITTED] T5059.004
    
    [GRAPHIC] [TIFF OMITTED] T5059.005
    
    [GRAPHIC] [TIFF OMITTED] T5059.006
    
    [GRAPHIC] [TIFF OMITTED] T5059.007
    
    [GRAPHIC] [TIFF OMITTED] T5059.008
    
    [GRAPHIC] [TIFF OMITTED] T5059.009
    
    [GRAPHIC] [TIFF OMITTED] T5059.010
    
    [GRAPHIC] [TIFF OMITTED] T5059.011
    
    [GRAPHIC] [TIFF OMITTED] T5059.012
    
    [GRAPHIC] [TIFF OMITTED] T5059.013
    
    [GRAPHIC] [TIFF OMITTED] T5059.014
    
    [GRAPHIC] [TIFF OMITTED] T5059.015
    
    [GRAPHIC] [TIFF OMITTED] T5059.016
    
    [GRAPHIC] [TIFF OMITTED] T5059.017
    
    Mr. Mica. Thank you, Mr. Ford. We will withhold questions 
until we have heard from all of the panelists.
    I would like to recognize Rand Beers, Assistant Secretary 
of the Bureau of International Narcotics, Department of State. 
Welcome, and you are recognized.
    Mr. Beers. Thank you, Mr. Chairman, Congresswoman Mink and 
other members of the committee. Thank you for the opportunity 
to speak today. I will offer a brief oral statement at this 
point in time and focus on the implementation of our U.S. 
Government assistance to Plan Colombia, a broad-gauged, 
multifaceted effort by the Colombian Government to deal with 
counternarcotics trafficking, economic development and 
government capacity.
    Since the emergency supplemental for Colombia was passed 
and signed into law in July, United States and Colombian 
planners have worked together to develop a comprehensive plan 
for the implementation of our $1.3 billion. The result is a 
comprehensive Interagency Action Plan that defines the 
implementation of our support to Colombia's counternarcotics 
effort and provides a mechanism to coordinate the various 
elements of our aid, particularly regarding eradication and 
alternative development.
    With the Government of Colombia's planning document in 
hand, U.S. Government agencies are now refining their draft 
implementation plans. In an interagency action plan the 
Government of Colombia has laid out an organizational structure 
which will assist in coordinating the counternarcotics programs 
with the other elements of Plan Colombia. Representatives of 
the Colombian police, the military, PLANTE, the agency which 
administers alternative development programs, and the social 
security agency will coordinate with mayors and Governors at 
the local and regional level. They will work under the 
supervision of a national technical committee consisting of 
representative governmental ministries such as PLANTE, Social 
Security and the security community. U.S. Embassy 
representatives will coordinate with this committee and at the 
local levels with the Embassy's Military Group, Narcotics 
Affairs Section, Drug Enforcement Administration personnel 
addressing counternarcotics matters. The Colombian technical 
committee in turn will report to an interagency Colombian 
Government body at the vice ministerial level, and finally to 
the heads of the ministries involved. Senior members of the 
Embassy country team will handle bilateral issues at this 
level.
    U.S. representatives will coordinate operational issues 
within the Embassy and with lead responsibility for specific 
projects generally falling to those agencies responsible for 
the project's funding.
    The initial 2-year phase of the Interagency Action Plan 
focuses on southern Colombia. It will start with the rapid 
expansion of social programs and institutional strengthening. 
Interdiction efforts will follow shortly thereafter, and 
eradication efforts will commence by the end of the year. 
Alternative development and other programs to strengthen local 
communities will expand into neighboring regions where 
counternarcotics programs will continue regionally.
    During the first phase, these regional efforts will be 
accompanied at the national level by public outreach and 
programs meant to prepare for the eventual expansion of the 
programs nationwide.
    Eradication in Putumayo will be conducted in two ways: In 
the areas dominated by small-scale cultivation of 3 hectares or 
less per farm, while voluntary eradication agreements, 
sometimes referred to as community pacts, will be concluded 
with the Government of Colombia and the individual communities, 
through this program small farmers will be given the 
opportunity to eradicate their illegal crops voluntarily as 
part of their development projects. Aerial eradication will 
continue to be important in the more remote areas of Putumayo, 
where large agribusiness coca plantations dominate the 
landscape and represent the largest area of cultivation in that 
troubled province.
    After the first 12 months of the eradication campaign in 
Putumayo, those communities in the alternative development area 
that have not opted to participate in the voluntary eradication 
program will be subject to possible aerial eradication. While 
eradication is getting under way, a Putumayo-focused 
interdiction effort will also be launched to disrupt the supply 
of important precursor chemicals into the region and the 
shipment of cocaine base and processed cocaine out of the 
region.
    Another principal activity will be the dismantling of 
processing labs. These activities should decrease the revenue 
potential of coca in the target area. When combined with the 
increased expense of time and money caused by eradication, the 
resulting distortions in the Putumayo coca market should 
encourage growers to abandon the crop as a source of income.
    An essential element of the interdiction efforts in 
southern Colombia will be the Colombian Army's counternarcotics 
brigade. While funding for its training and support was 
contained in the supplemental appropriation, our greatest 
contribution to the brigade, both in terms of the dollar amount 
and operational need, is helicopter lift.
    We are complying with the legislative mandate to purchase 
UH-60 Black Hawks through the DSCA, which provided us in the 
interagency community in September with the delivery estimates. 
These original delivery estimates that, by the Army's own 
admission, were conservative indicated that the Brigade's Black 
Hawks would begin to arrive in Colombia in October 2002, with 
all of the scheduled aircraft to be in Colombia by May 2003. 
These dates were based on worst-case assumptions that the 
contract would not be signed until April, and that the first 
aircraft would be completed 18 months later.
    I am pleased to report today, as we have indicated to 
committee staffs earlier, that we have worked out a deal with 
Sikorsky, with DSCA and with the Government of Colombia to 
establish a new timetable that, depending upon having the 
contracts signed no later than December 15th, will put all of 
the UH-60's in Colombia in 2001, with the first helicopters 
arriving in Colombia at the beginning of July 2001.
    We currently expect the Brigade's contingent of Huey II 
helicopters to be fully fielded within 2 years with the first 
aircraft arriving in mid-2001. These are current contractor 
estimates, and as was the case with the UH-60's, the delivery 
schedule may change as details are finalized, but we expect, 
and we have spent a great deal of time on this, that these are 
accurate and will be the final dates.
    The exact delivery dates for all of the aircraft have not 
been as precisely determined as the Black Hawks, but the 
aircraft will follow as quickly as possible. With respect to 
the Huey IIs, they will follow those Huey IIs that are planned 
for the Colombian National Police, and I am pleased to report 
that we have already signed the contract with Bell and have 
taken delivery of the first Huey II kits in order to ensure 
that the police have their helicopters as quickly as possible. 
The Government of Colombia has committed itself to making an 
effort to resolve that country's problems. With our assistance 
package of $1.3 billion, the United States has pledged much-
needed support. While teams in both countries continue to plan 
and adjust operational modalities, the implementation process 
is now under way, and I am confident of the success of these 
programs and Plan Colombia, and I look forward to working 
closely with this Congress, which has been supportive of this 
effort, as we continue to address these critical issues.
    This concludes my statement, and I am prepared to answer 
questions.
    Mr. Mica. Thank you. We will withhold questions unless we 
have heard from the other witnesses.
    [The prepared statement of Mr. Beers follows:]
    [GRAPHIC] [TIFF OMITTED] T5059.018
    
    [GRAPHIC] [TIFF OMITTED] T5059.019
    
    [GRAPHIC] [TIFF OMITTED] T5059.020
    
    [GRAPHIC] [TIFF OMITTED] T5059.021
    
    [GRAPHIC] [TIFF OMITTED] T5059.022
    
    [GRAPHIC] [TIFF OMITTED] T5059.023
    
    Mr. Mica. Next we have Anna Marie Salazar, Deputy Assistant 
Secretary for Defense. Welcome, and you are recognized.
    Ms. Salazar. Thank you, Mr. Chairman and members of the 
committee. I want to thank you for the opportunity to testify 
on the Department's role on the support of U.S. assistance to 
Plan Colombia. Unfortunately Mr. Sheridan wanted me to pass on 
his regrets for not being here this afternoon, and I ask that 
his written statement be submitted for the record.
    Mr. Mica. Without objection, so ordered.
    Ms. Salazar. Thank you, Mr. Chairman. As you know it has 
been a pretty rough day at the Department of Defense today, and 
due to the tragic attack on the USS Cole, the Secretary of 
Defense has asked Mr. Sheridan and required his presence at the 
Department of Defense. However, he did ask me to share briefly 
his thoughts with you.
    A couple of points in regards to the implementation of the 
supplemental in general. First, as Mr. Sheridan has testified 
previously on the Hill, I believe about five times in the last 
year, execution of Plan Colombia will be a challenge because of 
the extent and the complexity of the package. There will be 
setbacks. However, many of our initial estimates on the program 
and implementation of the program, as we have provided in his 
written testimony, are by nature conservative, but this is a 
sound plan. It is responsive to our Colombian counterparts, and 
it is worth doing, and we will continue to work very closely 
with the interagency in order to ensure fast implementation of 
the program.
    With that said, the Department has moved quickly in the 
execution of the program where existing contracts supported 
such actions, and, as an example, the President signed the bill 
on July 13. Mr. Sheridan signed the Department's implementation 
of Plan Colombia on July 24th. Three days later on July 27, the 
U.S. Army 7th Special Forces Group commenced its training of 
the second Colombian counternarcotics battalion. Another 
example is we are in discussions with the Colombians to see if 
they will have individuals available so we can start training 
helicopter pilots beginning November 1.
    So in the areas where we can move fast, where there is 
existing contracts, and where there is Colombian availability 
and individuals to train, we will rapidly implement.
    With respect to the GAO report, we agree with the general 
comments in the draft report, and we have provided formal 
responses to the GAO. As I just stated, execution of 
supplemental programs, including delivery of the associated 
support, will be a challenge. This is not a surprise. We are 
continuing to look at the 506 drawdown process with a focus on 
improving the delivery of counterdrugs support, and we are 
working closely with the State Department.
    That being said, equipment availability will continue to be 
problematic as the Department does not have large inventory of 
some of the equipment being requested by our Colombian 
counterparts. The supplemental has provided the State 
Department and Department of Defense with funding and 
authorities to contract out the purchase of much of the 
equipment required by the Colombians, and as a general rule 
contracting for new equipment will be much more efficient than 
using a 506 drawdown since we can go directly to the source and 
not depend on existing military inventories for equipment that 
may or may not exist or we may not have sufficient quantity.
    With that, I will conclude my remarks. I thank you for your 
attention, and I look forward to answering any questions.
    Mr. Mica. Thank you.
    [The prepared statement of Mr. Sheridan follows:]
    [GRAPHIC] [TIFF OMITTED] T5059.024
    
    [GRAPHIC] [TIFF OMITTED] T5059.025
    
    [GRAPHIC] [TIFF OMITTED] T5059.026
    
    [GRAPHIC] [TIFF OMITTED] T5059.027
    
    [GRAPHIC] [TIFF OMITTED] T5059.028
    
    [GRAPHIC] [TIFF OMITTED] T5059.029
    
    [GRAPHIC] [TIFF OMITTED] T5059.030
    
    [GRAPHIC] [TIFF OMITTED] T5059.031
    
    [GRAPHIC] [TIFF OMITTED] T5059.032
    
    [GRAPHIC] [TIFF OMITTED] T5059.033
    
    [GRAPHIC] [TIFF OMITTED] T5059.034
    
    [GRAPHIC] [TIFF OMITTED] T5059.035
    
    [GRAPHIC] [TIFF OMITTED] T5059.036
    
    Mr. Mica. Did you have a statement, General Huber?
    General Huber. No, Mr. Chairman, I did not. I read Mr. 
Sheridan's statement. He covered the DOD responsibilities. I 
would like to make a few comments with your permission.
    Mr. Mica. Please proceed.
    General Huber. Thank you, Mr. Chairman and members of the 
committee, for this invitation and privilege to be present 
before you in this very important meeting.
    I would like to say that my lane of responsibility is 
fairly narrow, as you recall, Mr. Chairman, from visiting 
Southern Command headquarters in Miami. As the Director of 
Operations I supervise the equipping and the training of the 
counternarcotics brigade. We concluded with the first battalion 
last December. We are currently in progress with the second 
battalion. We began at the end of last month the training of 
the brigade staff, and we project the training of the third 
battalion to begin in late January, and I am eager to answer 
any questions that you might have that fall into my operational 
role as the Director of Operations at Southern Command. Thank 
you.
    Mr. Mica. Thank you.
    We will proceed now with questions.
    First of all, Mr. Ford, let me just go over the report with 
you. A couple of the points, on page 3, first of all, you gave 
examples that the helicopters that the Department of State 
provided to the Colombian National Police did not have 
sufficient spare parts or the funding necessary to operate and 
maintain them; is that correct?
    Mr. Ford. Yes, sir. We have identified several cases since 
1998.
    Mr. Mica. Mr. Beers, is that still the situation, or do you 
have that corrected?
    Mr. Beers. Sir, there are two issues here to look at. I am 
not in disagreement that there are some spare part shortages, 
but there are input functions and output functions. With 
respect to the output function, which is the operational 
readiness rate of the Colombian National Police, Colombian 
National Police helicopters continue to operate at a 70 percent 
operational readiness rate, which is not at all out of line 
with the normal operational readiness rate of the U.S. 
military. So without denying that there are some spare parts 
shortages, they are still flying those planes.
    Mr. Mica. Mr. Ford, page 3, moreover the U.S. Embassy has 
made little progress implementing a plan to have Colombian 
National Police assume more responsibility for the aerial 
eradication program; is that the case? Through when? Through 
1999?
    Mr. Ford. Beginning late 1998, the narcotics affairs 
section at the Embassy developed a plan to turn over the aerial 
eradication program over to the National Police. It was meant 
to be a 3-year effort. The current U.S. contractors down there, 
I believe, were supposed to help train the Colombians so that 
they could take over that role. Basically I guess the issue has 
been overcome by events. Given that Plan Colombia, it is a 
secondary priority there.
    Mr. Mica. What is the situation, Mr. Beers? Is this correct 
as addressed?
    Mr. Beers. The facts are correct, sir. With respect to the 
nationalization effort, we began discussions with the 
Colombians in roughly that timeframe. We have had some modest 
transition in respect to the opium poppy effort where we have 
transferred six aircraft and essentially supported the 
Colombian National Police in the opium poppy eradication 
effort; but with respect to the coca effort, that transition 
has not occurred.
    We have an issue of the balance of using funds between a 
continuation of the current effort and a shift from the current 
effort to a Colombian effort, and the funds were simply not 
available to continue the eradication effort and also at the 
same time begin the process of the transition to the Colombian 
National Police. I wish that we had that funding. We did not, 
and so it has not happened.
    Mr. Mica. Well, the GAO report also says State planning 
documents indicate it has not budgeted funds to train pilots 
and mechanics, provide logistical support and support the 
operations of certain U.S.-provided helicopters. Mr. Ford, how 
current is that?
    Mr. Ford. Well, the most current case is really a funding 
issue having to do with the transfer of I believe it was 18 
Huey-1N helicopters which were intended to support the 
counternarcotics battalion.
    Mr. Mica. That was as of?
    Mr. Ford. They were delivered between November and, I 
believe, March 2000 with the intent that they would be used by 
the battalion by late April or early May. However, State 
basically ran out of funds, and they basically had to put the 
program in abeyance.
    Mr. Mica. Why didn't we reprogram money to take care of 
this situation, Mr. Beers?
    Mr. Beers. We did not reprogram money because we were 
waiting for the supplemental to be funded. We had reason to 
believe from the early consultations in January and February 
when the plan was proposed that the funding would be available. 
We had programmed the 1N program on top of previously 
programmed moneys, so it was an additive program. When the 
funding was not available, we did not have the funding 
available within the overall program.
    Mr. Mica. So, General, you had your battalion trained, one 
battalion trained?
    General Huber. That is correct.
    Mr. Mica. Were they deployed?
    General Huber. Yes, Mr. Chairman, although they had to use 
ground mobility means. They did receive some support from the 
National Police helicopters, but that first battalion located 
at Tres Esquinas----
    Mr. Mica. When was their training finished?
    General Huber. Last December.
    Mr. Mica. When were they first deployed?
    General Huber. They were deployed in ground operations 
immediately at the conclusion of training. They have not simply 
stayed put at Tres Esquinas.
    Mr. Mica. Do you have the air capability to move them 
around yet?
    General Huber. No, sir, we do not.
    Mr. Mica. OK, thank you.
    Let me ask this question, if I may. Someone told me that 
they are going to start training pilots November 1, begin 
training helicopter pilots. Now, in the report that GAO 
supplied, they had trained helicopter pilots, and then they 
laid them off; is that correct?
    Mr. Beers. Yes, sir, that is correct. We had trained the 
pilots. They are a combination of contract and army, Colombian 
Army, pilots.
    Mr. Mica. Do we have them--but then they were laid off. Now 
we are training new pilots beginning November 1?
    Mr. Beers. No, they were rehired beginning late September. 
They have basically been retrained now, and they will be 
deploying to southern Colombia with the first eight of the 1Ns 
for training activities in Larandia in the latter half of 
October.
    Mr. Mica. So we have trained pilots?
    Mr. Beers. For the 1N, sir.
    Mr. Mica. How long will it take to train them for the Black 
Hawks?
    Mr. Beers. We have talked with the various training 
sources, and they will be available no later than the first of 
July for all of the Black Hawks, sir.
    Mr. Mica. Trained?
    Mr. Beers. Trained pilots and mechanics.
    Mr. Mica. We want to make sure that if we have Black Hawks 
next July, that we have pilots.
    Mr. Beers. Absolutely.
    Mr. Mica. I am very concerned about putting these--this 
equipment, particularly the helicopters, they are pretty 
expensive, and not having adequate defense, whether it is 
armor, which some were delivered without, and now I am 
concerned about the surface-to-air missile threat. Is there 
such a threat, Ms. Salazar?
    Ms. Salazar. We don't have any confirmed information.
    Mr. Mica. Do you think that it is possible? People who can 
build a submarine a couple of miles from Bogota, would it be 
possible for them to acquire surface-to-air missiles?
    Ms. Salazar. As we have stated in the past, it would not 
surprise us.
    Mr. Mica. General, do you feel that the equipment that is 
being ordered for the new equipment, the Black Hawks in 
particular, is sufficient to deter, say, a missile attack?
    General Huber. Sir, the State Department's configuration of 
those helicopters has indeed applied the proper measures to 
defeat surface-to-air missiles.
    Mr. Mica. That is not what I am told.
    Mr. Beers. Sir, that is current information. It may not 
have been when you were told that, but the configuration which 
we described has two features on it.
    Mr. Mica. We won't get into that in public, but I do want 
to sit down and be briefed on that. I am very concerned that we 
have an incident where this equipment which was sent down there 
to do the job is not capable of defending itself from an 
attack.
    Mr. Beers. We will be happy to brief you in private, sir.
    Mr. Mica. Let me defer at this point to the gentlewoman 
from Hawaii.
    Mrs. Mink. Thank you, Mr. Chairman. The whole idea of this 
particular method of addressing our drug problem in the United 
States is very confusing and perplexing. I have every 
confidence that the moneys having been provided to you for the 
specific purposes as outlined in the appropriation bill will be 
fully and competently expended for the purposes intended. So I 
have no intention to question when you are going to do it and 
how, and the fact that it will be done as quickly as you 
humanly can get it in place as intended.
    I have no question with respect to the overall goals of 
Plan Colombia, which is to reduce the cultivation, processing 
and distribution of narcotics by 50 percent over 6 years--it is 
a laudable goal--and the request made by the Colombian 
Government to the United States to participate in it, and to 
that extent the U.S. Congress has appropriated $1.3 billion for 
that effort. My question really to the entire panel is over the 
years of our concern about Colombia and its importance with 
reference to our drug problem in the United States, would you 
be able to say that the expenditures of the funds thus far 
allocated to various segments of the U.S. Government have been 
effective in curbing the market of these drugs within the 
United States? And if not, why not?
    Mr. Beers. I will start, if I may. I think it is important 
in first asking the question to talk about the coca problem not 
as a Colombian-only problem, but to talk about it as a regional 
problem. The ability to supply the United States with coca is 
an Andean problem, it is not just a Colombian problem. It has 
become focused in Colombia as a result of some successes in 
Peru and Bolivia, and I think that those successes are 
noteworthy, and I think that those successes overall still 
balance out in the affirmative with respect to the overall 
success in the region as opposed to the dramatic increase of 
coca cultivation.
    Mrs. Mink. In the successes of Peru and Bolivia, to what 
extent was U.S. policy responsible for the successes that those 
two countries enjoyed?
    Mr. Beers. U.S. policy has been in support, but none of 
these programs and policies and efforts work without the 
cooperation of the host government concerned; and in both 
countries we had governments willing to deal with this problem 
and to go after it and to do it successfully.
    We have had some difficulty in Colombia in years past, 
despite the efforts of the Colombian National Police, but I 
believe we have now a Government in Colombia of like mind to 
the Governments in Peru and in Bolivia.
    With respect to the issue of the effect of the drug flow in 
the United States, I cannot report to you that the overall 
success in the Andean region has had the same direct effect 
within the United States because the United States is also not 
the only drug market in the world for cocaine use. And the 
ability of the traffickers to produce drugs and supply markets 
around the world is a pretty effectively managed illegal 
industry, and while I think it is fair to say that drugs have 
dropped within the United States over the last certainly 20 
years from the worst period in the late 1970's, I am not going 
to try to assert to you that there is a direct relationship 
between the last 5 years of government assistance in Colombia 
or even in the Andean region for the decreases in drug use 
within the United States.
    But I do believe that our effort on the supply reduction 
side together with our effort on the demand-reduction side are 
two parts of a whole, both of which require the support of the 
U.S. Government, and only through both of which will we be 
successful.
    Mrs. Mink. What is the real, honest expectation that we can 
convey to the American people that this particular involvement 
of the United States in the Plan Colombia will yield the 
successes as we want to see them in the United States, and that 
is to reduce the supply?
    Mr. Beers. Yes, ma'am, I think this is the best opportunity 
that the United States and the world will ever have to deal 
with the cocaine problem. We have for the first time--and I 
have been working in this area for 12 years through three 
administrations in the State Department and at the White House, 
and I believe that through the position of the three Andean 
coca-producing countries, together with the United States, we 
have the best opportunity we will ever have, and that the goal 
of reduction of coca in Colombia by 50 percent over the next 5 
years is a reasonable goal. It is exactly parallel to the 
already successful effort that has occurred in Peru. It is 
slightly less heroic than the effort that has occurred in 
Bolivia, which that same level of 50 percent has occurred in 
2\1/2\ years, but it is also a tougher environment in Colombia. 
I think this is the best opportunity we will ever have. And 
that will show an effect in the United States.
    Mrs. Mink. The helicopters that are being built and 
transferred to Colombia, exactly to whom are they being 
delivered? Under whose management authority will these 
helicopters be flying and for what purpose?
    Mr. Beers. There are two groups of helicopters in the 
general sense. Some will go to the National Police, and some 
will go to the Colombian Army. A few planes, not helicopters, 
will go to the Colombian Air Force. The title for those planes 
will all be retained by the State Department, as is customary 
in these situations for counternarcotics purposes under the 
legislation under which you have authorized us to proceed.
    With respect to the Colombian Army, an organization which 
the State Department has not supported in the past, we are 
moving together with the Department of Defense, together with 
U.S. Southern Command, to make available to the Colombian Army 
up to 16, but it will probably be 13 or 14, Black Hawk 
helicopters, and up to 30, but it may not be that many, Huey II 
helicopters and 33 UH-1N helicopters. The ability for the 
Colombian Army to be able to have a fully air-mobile 
counternarcotics brigade and the first ability to do that lift 
will be before the end of 2001.
    With respect to the Colombian National Police, we will be 
providing one or two Black Hawk helicopters and 9 to 12 Huey 
IIs, in addition to the already existing Colombian National 
Police aircraft inventory, which includes Black Hawks and Huey 
IIs. They will be to support the Colombian National Police 
operations on a national basis.
    Mr. Mica. I thank the gentlelady.
    Let me yield now to Mr. Gilman, the gentleman from New 
York.
    Mr. Gilman. Thank you, Mr. Chairman. And I want to thank 
the panelists for coming here today to give their expert 
opinions.
    Let me first address a question or two to Mr. Beers.
    Mr. Beers, the antidrug police in Colombian have the urgent 
need, plus the pilots and the mechanics and infrastructure, to 
at this time, at this very important moment, to support two 
Black Hawks in the Plan Colombia emergency supplemental. The 
Army does not have such capacity. We are hoping that you will 
work to ensure that the first two, whatever total Black Hawks 
you agree on for Colombia, will go to the police. It will make 
sense when some of us are having trouble trying to decipher 
what the administration is doing with the Plan Colombia funds. 
So can I have your assurance that you will work in that 
direction?
    Mr. Beers. I can't give you my assurance that the first two 
Black Hawks will go to the Colombian National Police. We will 
certainly take your view into account. We have not decided yet 
on the final configuration of the two Black Hawks for the 
police. We have decided on the final configuration for the 
Black Hawks for the Colombian Army. That does not mean that the 
first two cannot be delivered to the police. We will have to 
bring all of that into account. We will have all of the Black 
Hawk helicopters delivered to Colombia, Army and police, before 
the end of calendar year 2001, in the third quarter 
essentially.
    Mr. Gilman. Before 2001 in the third quarter?
    Mr. Beers. Yes, sir.
    Mr. Gilman. When will your first delivery take place?
    Mr. Beers. July 1, 2001. That is the earliest possible date 
that Sikorsky can provide the helicopters. This is a delivery 
date that is faster than the delivery date that the 
administration offered to the Congress when we presented the 
original plan in February 2001, not having anything to do with 
the fact that it took another 6 months to pass the 
supplemental.
    Mr. Gilman. I think it is abominable to have to wait that 
long when they are confronted with such a critical problem, and 
I hope you will try to expedite that delivery and make certain 
that the delivery goes to the people who need them the most. 
They need these Black Hawks. I hope that you will take a good 
hard look at that, Mr. Secretary.
    The State Department recently turned down a CNP for night 
vision goggle training on one of its Black Hawks by the 
Colombian Army at no cost to our government. Why would we not 
want the CNP to maximize the use of the Black Hawks at night as 
well by giving them that kind of training?
    Mr. Beers. Sir, thank you for that question. That is a very 
good question. The reason, the effort, the focus, of our effort 
is to do what you want us to do, and one pilot in one plane 
does not make a night-capable effort. Our effort is directed at 
training the Black Hawk pilots, plural, for the Colombian 
National Police, and we are engaged in a program to provide the 
Colombian National Police with a Black Hawk pilot night vision 
capability.
    I will give you a full report on that as soon as we and the 
Colombian National Police have agreed to how we are going to do 
that. But it is the entire Black Hawk pilot fleet and not one 
pilot, sir.
    Mr. Gilman. We are not asking one pilot, we are asking that 
it provide the training.
    Mr. Beers. That is what I am talking about, sir.
    Mr. Gilman. Pilots need that training to do their work.
    Mr. Beers. That is our objective.
    Mr. Gilman. The Colombian Army General Montoya, who is in 
charge of the push into southern Colombia, recently told our 
committee staff that he couldn't get any defensive weapons 
other than an ineffective M-60 machine gun to protect his 
troops in our counternarcotics choppers. He cited the Leahy 
amendment as the reason. In addition, he told our staff, even 
these M-60's, which at best might scare the birds away, all 
burned up during the counternarcotics battalion training. Are 
we going to send the Army counternarcotics battalions who are 
trained into combat against the FARC, who are waiting and know 
they are coming, without adequate defensive weapons like an MK-
44 minigun to protect both them and our choppers? Isn't this a 
disaster waiting to happen?
    General Huber. Mr. Gilman, that is outside of my 
operational lane. As to the configuration of the lethal aid----
    Mr. Gilman. Who is responsible for that? Is that Ms. 
Salazar?
    Ms. Salazar, how do you respond to that?
    Ms. Salazar. Yes, thank you, Mr. Gilman.
    As you know, the Department of Defense does not have 
authorities to allow us to purchase lethal aid. And in 
conversations with our Colombian counterparts, we are providing 
the necessary equipment for the counterdrug battalions.
    Mr. Gilman. Doesn't the statute provide for protection of 
the assistance that we provide?
    Ms. Salazar. Yes, but it very specifically states that we 
cannot provide lethal aid. Our statutes prohibits us from doing 
that. In the past you will find that you will not be able to 
provide lethal aid.
    Mr. Gilman. Mr. Beers, go ahead. What about proper 
protection? You are sending this equipment down and--you don't 
give them decent weapons.
    Mr. Beers. The authority rests with the Department of 
State. We, together with U.S. Southern Command, not General 
Huber's portion of Southern Command, but the planning side of 
U.S. Southern Command, and the Colombian Army have had an 
ongoing configuration discussion with one another from May 
until August to decide on what the armament ought to be for the 
aircraft.
    Mr. Gilman. What have you decided?
    Mr. Beers. It ought to be the M-60 machine gun and the MK-
44. Sir, this is agreed to by the Colombian Army and the best 
military experts in the U.S. military. This is not a State 
Department decision.
    Mr. Gilman. Mr. Beers, is the M-60 an effective defensive 
weapon?
    Mr. Beers. Sir, this is the judgment of the military 
professionals of two armies.
    Mr. Gilman. Well, that is not the opinions that we are 
receiving, and I hope that you will take another look at it. 
They find that the M-60's are ineffective, and they burned out 
on use.
    Ms. Salazar, who is in charge of U.S. military assistance 
in the Colombian Army? Is it your office or Mr. Beers?
    Ms. Salazar. We work closely with the U.S. Department of 
State.
    Mr. Gilman. But who is in charge?
    Ms. Salazar. We have the policy--the policy guidance over 
the programs, but, as you know, much of the authorities and the 
funding comes from the Department of State.
    Mr. Gilman. But who makes the decisions with regard to the 
kind of equipment, the military equipment?
    Mr. Beers. The military does, sir. The U.S. military does. 
We provide the money. They provide the decision process.
    Mr. Gilman. Who in the U.S. military makes that decision?
    Mr. Beers. It is Assistant Secretary Sheridan in 
consultation with the Chief of U.S. Southern Command.
    Mr. Gilman. General Huber, are you consulted with regard to 
that?
    General Huber. Yes, sir. All of the general officers in 
Southern Command have the ability to provide input as to the 
effectiveness of equipment purchases.
    Mr. Gilman. General Huber, who decided to put the M-60's on 
the Hueys?
    General Huber. Sir, I cannot answer that question. I was 
not involved in that discussion.
    Mr. Gilman. Who would be?
    General Huber. My understanding of that discussion, 
specifically as Mr. Beers stated, it was a combination of the 
people who are going to use the platform, the Colombian 
military, as well as the requirements strategy portion, Major 
General Soligan at Southern Command.
    Mr. Gilman. Major General Soligan?
    General Huber. Yes, sir. He was involved in that discussion 
as well.
    Mr. Gilman. In your opinion, is the M-60 a good defensive 
weapon?
    General Huber. Sir, I have had this discussion with 
Brigadier General Montoya, and he and I differ on that opinion. 
The M-60, when properly utilized and maintained, is an 
effective defensive weapon.
    Mr. Gilman. Did General Montoya say it was ineffective?
    General Huber. I will ask him that question next week.
    Mr. Gilman. Would you please do that so we have good 
defensive weapons for this expensive equipment?
    Mr. Ford, in July the State IG reported that NAS in 
Colombia didn't consult with the CNP on the configuration of 
helicopters we provided them. Has that changed today?
    Mr. Ford. I can't speak for the IG. I have seen the report. 
They did, in fact, report that there were communication 
problems between the NAS and the police; and beyond that, I 
don't have any expertise in terms of where they got their 
information.
    Mr. Gilman. Is that a problem that can be straightened out?
    Mr. Ford. I don't see why not. It is a matter of 
communications. They ought to be able to handle it.
    Mr. Gilman. Would you be able to handle it?
    Mr. Ford. I will be happy to pass it on. I am not the State 
IG.
    Mr. Gilman. Is that Mr. Beers again?
    Mr. Beers. Yes, sir.
    Sir, I think that the report accurately stated that there 
were some problems of consultation. I firmly believe that those 
problems have been corrected.
    I believe that the Black Hawk helicopters which you 
authorized and appropriated for us to buy did involve full 
consultations. I can assert absolutely that the Black Hawks 
that the Army and the police are currently discussing involve 
full consultations, as do all of the other aircraft in Plan 
Colombia.
    Mr. Gilman. It is gratifying to hear that, and I hope with 
all of this bureaucracy involved in trying to provide a proper 
offense against narcotics traffickers, you will work together 
to make sure that we have the most effective equipment and 
effective supplies to go to the people who are there on the 
front line.
    Mr. Beers. Yes, sir.
    Mr. Gilman. Thank you, Mr. Chairman.
    Mr. Mica. Ms. Schakowsky.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Mr. Beers, I am wondering if you have any written response, 
or the State Department does, to the GAO report, because after 
listening to Mr. Ford and then listening to you, it is as if 
you didn't hear him, or everything was going along hunky-dory, 
and I am wondering if the Department of Defense--Ms. Salazar, 
you said there are written responses to the GAO report. Does 
the State Department have a written response?
    Mr. Beers. We commented on some of the elements of the GAO 
report. We welcome the opportunity for investigative 
organizations such as the GAO and the State IG to help us do a 
better job. We think that this was done in that spirit.
    Ms. Schakowsky. I am wondering if we can all get copies of 
your responses that you do have.
    Mr. Beers. You certainly may.
    Ms. Schakowsky. I am concerned about three things that I 
want to briefly ask about: the cost; the number of Americans 
involved; and human rights abuses. It concerns me that neither 
the international donors or Colombia itself is coming up with 
their share, it seems, of the $7.5 billion for Plan Colombia, 
but what I want to know is if they don't, do you foresee a 
request for yet more money and a larger share of the burden 
being funded by our U.S. taxpayers?
    Mr. Beers. I think that it is fair to say that the 
Government of Colombia has provided some--remember it is a 3-
year program when they estimated it was $7.5 billion, and we 
are only in the first year of that program. So it is 
premature----
    Ms. Schakowsky. If they don't come up with the money, do 
you foresee us paying for more of it?
    Mr. Beers. We will be back to the Congress, and we never 
said that we wouldn't be back to the Congress independent of 
all of the other assumptions in a 2002 request which will be 
for additional money to support Plan Colombia. The money that 
is already in the fiscal year 2001 budget in both the 
Department of Defense and State Department budget is also 
supportive of Plan Colombia. So there will be more requests for 
money to support Plan Colombia. This is not even a 3-year 
program, it is a 5-year program.
    Ms. Schakowsky. Will that amount that is requested be 
impacted by what the Europeans do or what--do or don't do or 
what the Colombians do or don't do?
    Mr. Beers. It will be impacted by all of the factors that 
are relevant, and that is one of them.
    Ms. Schakowsky. I am concerned about the number of 
Americans involved. I want to quote you from an article that 
appeared in the Chicago Tribune on September 24 of this year. 
It starts, ``The hotshot pilot swoops down at 200 miles per 
hour in his Vietnam-era crop duster gliding 50 feet over the 
coca field valleys he has been hired to destroy. For now he is 
part of a growing civilian army hired by Uncle Sam to help 
fight Colombia's war on drugs to be financed largely by the 
$1.3 billion in U.S. aid. While there are limits to the number 
of U.S. military people who will be involved in training 
Colombian troops, there are fewer restrictions on how many U.S. 
civilians can be hired by military contractors. `Every pirate, 
bandit, everyone who wants to make money on the war, they are 
in Colombia,' said one Congressional aide in Washington. He 
described efforts to snare contracts as a free-for-all. `This 
is what we call outsourcing a war,' he said, referring to the 
use of freelance help.''
    Then it says, ``It is difficult to predict how many 
Americans will become part of the Colombian conflict, up to 100 
special forces. Navy SEALS already are teaching Colombia's 
counternarcotics battalions. U.S. workers are operating ground 
radar stations. Civilian coca-spraying crews provide aircraft 
maintenance at Colombian bases. On any given day, 150 to 250 
Americans are helping in Colombia's drug war. That number will 
go to 500 U.S. military personnel and 300 civilians under new 
caps that can be increased by the President.''
    I am wondering that we as Americans ought to be concerned 
about this growing number and the extent to which this 
civilian-paid Army is a presence in Colombia; and what, if 
anything, we are going to need to do, as Representative Gilman 
was asking, to protect them?
    Mr. Beers. The Department of Defense has programs of its 
own, and I will only speak to the State Department and the 
Justice Department, since they are also part of this effort and 
are not here.
    We have in Colombia, in support of efforts that preceded 
Plan Colombia and that will continue into Plan Colombia, 
aircraft, a number of aircraft, some of which are flown by 
American pilots, but not all; some of which are maintained by 
American mechanics, but not all. Those will continue until we 
have completed the training process and turned this over to the 
Colombian National Police in order to ensure that we have a 
continuous and strong effort to deal with the eradication side.
    That is one element of the overall U.S. contractor, and I 
am not talking about Federal Government employees, I am only 
talking about contractors that will be involved.
    In addition to that, USAID, in support of programs which 
deal with alternative development and support for social 
justice within Colombia, will also have some U.S. contract 
personnel within Colombia.
    In addition to that, the Justice Department, in addition--
--
    Ms. Schakowsky. Is there a number?
    Mr. Beers. You will have to get that number from AID, or I 
will get it for you. I don't know it off the tip of my tongue.
    In addition, the Justice Department will have some contract 
employees, but you are correct in saying that the limit 
currently is 300 contract U.S. employees within Colombia. That 
accounts for the State Department portion of that. There are 
also some contracted employees in the Department of Defense as 
well as uniformed personnel.
    Ms. Schakowsky. One more area that I wanted to get to.
    I am concerned about the human rights abuses and our 
reliance on the military, the same military that we are 
sending--and police, by the way, Black Hawks and Huey IIs and 
whatever. On August 15, 2000, six children were killed when the 
army opened fire for about 45 minutes. They claimed that 
guerillas were mixed up with some children. There has been no 
evidence. There were no shells near the children, no wounded or 
killed soldiers or guerillas.
    In the last couple of days, two human rights defenders were 
abducted in Colombia. There had been death threats. We continue 
to show our faith in the army and in the police where if--I 
have plenty of evidence here of cases where even the police who 
we say are beyond approach are not so, and keep funding them. 
The President certified that human rights criteria have been 
met. Why should we, in the face of this kind of evidence, 
believe that is so?
    Mr. Beers. Ma'am, with respect to the two incidents that 
you outlined, and particularly the tragic incident concerning 
the schoolchildren, we are as concerned as you are about those 
incidents, and we have asked the Colombian Government for an 
accounting of both of those incidents in order to understand 
what has happened and what has gone wrong if it appears that 
the initial evidence, with respect at least to the issue 
concerning the children, is, in fact, accurate.
    I am not in a position today to give you an answer to the 
Colombian response to us. I am not sure that we have received 
it yet. But I will get you that information as quickly as I 
possibly can.
    With respect to the efforts to support the police and the 
army and the Colombian military more generally, you all have 
been generous in your support for focusing on and dealing with 
the human rights situation in Colombia, and we take that 
funding support seriously; and we have both in the State 
Department and the Justice Department and the Defense 
Department put together a number of programs designed 
specifically to improve the overall human rights situation in 
Colombia.
    It will not happen overnight, and I am not here at this 
particular point in time to say that there is a perfect record 
on the part of the Government of Colombia. But I will say that 
I think we have demonstrated from the State Department's 
perspective that the situation has gotten better in Colombia, 
but there is still more work to be done, and the Colombians 
would agree with my statement.
    With respect to the President's certification, with all due 
respect, ma'am, he waived that certification. He did not 
certify. We were not in a condition to certify because the 
conditions had not been met by the Colombian Government. Those 
are a continuing subject of dialog between ourselves and the 
Government of Colombia. Every meeting with senior-level 
officials of the Government of Colombia that I have 
participated in has involved that subject as a major element of 
that discussion.
    Ms. Schakowsky. What is the significance then of waiving? 
If the aid packages are conditioned on the President's 
certification, does that mean that although we are not able to 
certify, we are going to continue funding even in the face of 
continued human rights abuses? What status is that?
    Mr. Beers. The provisions of law, as I understand them, are 
that we are required in every fiscal year in which we expend 
money for Plan Colombia to either certify or waive those 
requirements. So the original waiver that the President signed 
was for fiscal year 2000. Before we can obligate any money in 
fiscal year 2001, we will again be required to certify or to 
waive those requirements.
    Of those human rights requirements, three were factual: Has 
the Government of Colombia done a specific act? The other three 
were, having done that specific act, have they, in fact, 
implemented the intent of that act over a period of time?
    And the second three issues are written--currently written 
in very absolute terms, fully implemented, completely done, and 
at this particular point in time, I think if you asked us today 
to make a determination, we would now be in a position to say 
that we believe that the Colombian Government has carried out 
the three specific acts that you have asked them to carry out. 
But we are not in a position today, and we will continue to 
work with the Government of Colombia to get them to be in a 
position to say that they have, in fact, implemented the intent 
of those specific acts.
    Mr. Mica. I thank the gentlelady, and I now recognize Mr. 
Ose from California.
    Mr. Ose. Mr. Beers, it is my recollection that the 
supplemental we passed in July had a--had some specific 
reporting requirements in terms of the actual strategy that was 
going to be used in Colombia. What I am trying to figure out--I 
know that there was a time line on that. Was it 60 days that we 
were supposed to have that back?
    Mr. Beers. I believe that is correct.
    Mr. Ose. Has that been delivered?
    Mr. Beers. It has not, to the best of my knowledge, as of 
yesterday morning. I am not sure today. It is in final 
preparation in the White House at this time, sir.
    Mr. Ose. Who in the White House might we call?
    Mr. Beers. The Office of National Drug Control Policy is 
the office which has been assigned responsibility for drafting 
that strategy, sir.
    Mr. Ose. The strategy is actually being reduced to black 
and white?
    Mr. Beers. The strategy is drafted. It is in final 
clearance.
    Mr. Ose. So we are going to get it shortly?
    Mr. Beers. Yes, sir.
    Mr. Ose. We talked about the aid going to Colombia. How do 
we measure its efficacy? Do we measure it by the price on the 
street? Do we measure it by immigrant flows? How do we measure 
whether or not our aid is working?
    Mr. Beers. Sir, I am a believer that the best measurement 
of this kind of a program is what I talked about earlier, which 
is the output function. The output function from Colombian drug 
traffickers is how much coca do they grow and process and 
export from Colombia. And the principal benchmark which we use 
is the number of coca hectares under cultivation, and that is 
the measurement against which the 50 percent reduction is 
designed to focus.
    Mr. Ose. Do we track how much comes north?
    Mr. Beers. Yes, sir.
    Mr. Ose. That is what DOD does?
    Mr. Beers. That is what the Intelligence Community does, 
sir.
    Mr. Ose. How do they do that?
    Mr. Beers. It is a classified program, but in general 
terms, through various forms of intelligence, they look at what 
information is available with respect to the movement of coca 
to the United States.
    Mr. Ose. So we have assets in the area that monitor the go-
fast boats?
    Mr. Beers. Yes, sir, planes, land transport, all of that.
    Mr. Ose. Do we have locations in the area--we do have--we 
have those forward-operating locations?
    Mr. Beers. Yes, sir. We also have ships at sea.
    Mr. Ose. Now, if I recall correctly, back in June, Ms. 
Salazar, you were before us, and you were talking in 
particular--I think the three forward-operating locations were 
Manta, Aruba and Curacao?
    Ms. Salazar. And now El Salvador.
    Mr. Ose. There were some problems with each of those. 
Having pulled out of Howard, we had to make some improvements 
to the runways and taxiways at Manta and also some aprons at 
Aruba and Curacao. Did the Colombian supplemental contain 
funding for those improvements?
    Ms. Salazar. Yes, under the MILCON authorities for those 
improvements. We will be coming back for fiscal year 2002 for 
the improvements for El Salvador.
    Mr. Ose. I want to focus right now on the Manta 
improvements. As I recall from your testimony in June, the Air 
Force was on the verge of a contract for the runway and taxiway 
improvements like the middle of July.
    Ms. Salazar. Correct.
    Mr. Ose. Were those contracts awarded?
    Ms. Salazar. I believe we put a hold on it for a couple of 
weeks. I believe they were about to be let, or they may have 
been let already, but we basically gave out the order for the 
contracts to be let.
    Yes, there were two series of contracting awards that were 
taking place. The first one, the construction contracts, were 
let.
    Mr. Ose. OK. Now, obviously when we work on the runways and 
taxiways at Manta, you can't use the base while the 
construction is under way. If I recall correctly, Southern 
Command was in the process of arranging alternative--an 
alternative forward location to Manta while the construction 
was under way. Have those arrangements been completed?
    General Huber. Yes, sir, they have. You are exactly 
correct. As we looked at how long it would take basically to 
pour the concrete, we will use Aruba and Curacao as well as the 
international airfield in El Salvador, where we have aircraft 
operating out of right now, sir.
    Mr. Ose. Are we--let's see, July, August, September, are we 
on schedule with the improvements to the runways and taxi ways 
at Manta to be able to put AWACS into the region under the 
original schedule which called for by summer of 2001?
    General Huber. In my opinion, yes, sir, we are.
    Mr. Ose. Ms. Salazar, you were the one who brought this 
subject up back in June.
    Ms. Salazar. The way--I'm making calculus in my mind. As 
you know, we didn't get the supplemental until July 1st, so 
there was some stalling in the first. So we may be off by some 
weeks.
    Mr. Ose. So we are going to make it by the summer of 2001 
on AWACS at Manta.
    Ms. Salazar. We hope so.
    Mr. Ose. I guess that's a commitment.
    Now, the next question I have is that we had a long 
discussion in that June hearing about P-3's versus AWACS. And I 
know I submitted some written questions for the record, Mr. 
Chairman, related to the efficacy of the P-3 versus the 
efficacy of the AWACS relative to their cost and their range 
and what have you. Ms. Salazar, if you can, is there a 
difference in the performance between a P-3 and an AWACS in 
this area?
    Ms. Salazar. Sir, I would defer to General Huber since this 
is an operational question.
    Mr. Ose. General, is there a difference in the performance 
of a P-3 versus an AWACS in this area?
    General Huber. Yes, sir, there is. Other than the obvious 
time on station and duration, the AWACS, which is our primary 
goal, as you know, to get that AWACS operating in Manta to give 
us particularly the range into the southern portion of Peru 
which we can get with the P-3's here.
    Mr. Ose. Is the--am I correct in recalling that--I'm trying 
to remember, it's like if you have one AWACS that it requires 
2.4 P-3's to do the same job?
    General Huber. I'm not familiar with that comparison, sir.
    Mr. Ose. If a P-3 is not the equivalent of an AWACS on a 
one-to-one basis from an efficacy standpoint, is it half as 
effective? Is it three-quarters as effective? Do you have any 
feel for that?
    General Huber. No, sir, I don't. But I will get that answer 
from the Air Force component. They've got the experience. I'm 
just a simple infantry man.
    Mr. Ose. We all dump on, don't we. All right. I want to go 
back one more question, Ms. Salazar, on these forward operating 
bases. As it relates to Howard, if I recall correctly, your 
testimony for the last fiscal year out of which or in which 
Howard operated as forward operating location was that there 
was a--cost of the flights out of Howard was $75 million. The 
relative costs of operations out of, say, Manta or Aruba or 
Curacao or El Salvador, how does that compare to the $75 
million?
    Ms. Salazar. Sir, I want to come back to you with the exact 
numbers. There have been some confusion because different 
numbers were given at different times. If you allow me, I'll 
come back with the exact number.
    Mr. Ose. I'm not sure I'm interested in doing that, Ms. 
Salazar, because I did submit these questions for the record 
back in June and I don't yet have answers.
    Ms. Salazar. I apologize, sir. Generally my staff and 
myself are--we try to get those questions to you as soon as 
possible. If you don't have them, I will make sure that you 
have them this week.
    Mr. Ose. Can you get a copy of this and take that to Ms. 
Salazar, please?
    Thank you, Mr. Chairman.
    And then bring me the original back.
    Mr. Mica. I thank the gentleman. And also if we could have 
a response for the record. We have it open for 2 weeks. We 
would appreciate you responding to the questions. If they 
weren't answered in June, they should certainly be answered 
after that hearing.
    Let me yield now to the gentleman from Maryland, Mr. 
Cummings.
    Mr. Cummings. Thank you, Mr. Chairman. I only have a few 
questions. Mr. Beers, is the United States assisting Colombia 
in identifying additional funding sources to support the plan?
    Mr. Beers. On a regular basis, sir. That is a constant 
topic of discussions. We have weekly or nearly weekly 
television conferences with them and that's one of the 
continuing every-time subjects that we talk about.
    Mr. Cummings. You said every time what?
    Mr. Beers. Every time we meet we talk about that subject 
and what each of us are doing together and separately in order 
to generate additional external funding.
    Mr. Cummings. OK. And what kind of progress are we making?
    Mr. Beers. Well, since the conference that was in July we 
have generated, I believe the numbers, an additional $200 
million in pledges. We're looking toward another conference 
coming up in October or early November to try as a date 
specific to generate additional funds. President Pastrana is 
going on a European tour, I believe at the end of October, and 
we will be sending people in parallel to talk to the European 
donors as well.
    In addition to that, we have a longer term effort in 
association with the U.N. Drug Control Program. There will be a 
major donors conference meeting in December which I will 
attend. That will be another opportunity to talk to donors 
about generating additional funds.
    Mr. Cummings. According to the Los Angeles Times, I think 
they say a third of the drugs coming out of Colombia go to 
Europe. Is that accurate?
    Mr. Beers. Roughly, yes, sir.
    Mr. Cummings. And other than these discussions, I mean do 
we have ways of pressuring Europe to contribute more?
    Mr. Beers. Pressure, I wouldn't put it quite that way, sir, 
but we certainly make a strong effort at senior levels in the 
State Department to make that clear that this is a joint effort 
and that we are all subject to the problems that come out of 
Colombia. We provide them with information both open source and 
for those countries with which we exchange classified 
information we provide them with that same information or more 
information, I should say, on the classified basis. We have 
made attempts to talk to media in European media outlets in 
order to bring this effort to the publics within Europe in 
order to try to generate that same kind of support as has been 
done so effectively by many of you in this country in terms of 
drawing the American people's attention to the problem of 
drugs.
    Mr. Cummings. There have been reports that the guerrillas 
have said that anyone who accepts U.S. money will become a 
potential military target. Have you heard that?
    Mr. Beers. Yes, sir.
    Mr. Cummings. In light of this information what's the 
United States doing to protect our humanitarian workers and 
their Colombian counterparts?
    Mr. Beers. The Ambassador in Colombia is responsible for 
all of the protection of all of the official Americans in 
Colombia. And let me focus first on that, because that's not 
the only issue. With respect to that, she has regular meetings 
or her deputy chief of mission have regular meetings to talk 
about, one, the general threat to official Americans in 
Colombia and, two, any specific information about specific 
threats.
    As a result of that, there is a changing posture which can 
change within a few hours of receiving the information to say 
that an individual can go some place or cannot go some place, 
that individuals are in some place have to come back to a safer 
location in order to ensure their protection. In some cases 
that directly affects the ability for periods of time to 
deliver the programs that we've been talking about here, both 
on the humanitarian side and on the counternarcotics side. But 
we and she take very seriously the protection of official 
Americans.
    In addition to that, and through the same structure, she 
has the ability to reach out to nonofficial Americans in 
Colombia. There is a network in order to get information out to 
nonofficial Americans in Colombia to tell them about changes in 
the threat environment, to tell them where places are safe and 
where places are not safe.
    And then, third, we have the general notification process 
which says to the traveling American public what the dangers 
and risks are if you choose to travel to Colombia, for example, 
as a tourist. And Colombia is currently regarded as a place in 
which great caution should be exercised and most people should 
not consider going.
    Mr. Cummings. Just one last question, Brigadier General 
Huber, it's my understanding that in response to the increased 
U.S. presence in Colombia, drug traffickers and even the 
guerrillas have moved their operations to countries along the 
border. What is the U.S.'s response to the violence and the 
drug trafficking spreading in that region?
    General Huber. Sir, from U.S. Southern Command's 
perspective as I travel the region and talk to my military 
counterparts, they support the statement that you just made, 
that the police and the military of the neighboring countries 
have indeed repositioned and reinforced their borders in an 
attempt in coordination with the military of Colombia to 
contain the movement of the coca cultivation. As far as our 
response from my perspective, it is once again the training of 
those military units much like in our country, where the 
military provides support to the law enforcement agencies in 
the matters of communication, transportation, training, enhance 
those capabilities.
    Mr. Cummings. Thank you. Thank you, Mr. Chairman.
    Mr. Mica. Thank you. Pleased to recognize the gentleman 
from Massachusetts, Mr. Tierney.
    Mr. Tierney. Thank you, Mr. Chairman. And thank you, 
members of the panel, for your testimony. Could I just ask--and 
it may be something that I missed--but are we anticipating in 
the next go-around there will be a waiver or certification on 
the human rights issues?
    Mr. Beers. Sir, I'm not in a position to predict precisely 
what would happen, but if you ask me where we are today we 
would have to waive again.
    Mr. Tierney. We would have to waive again. We talked a 
little bit, Mr. Cummings asked about the progress of other 
participants in this plan. What about the status of money that 
Colombia was supposed to dedicate to this plan? According to 
the GAO report, they're a long way from identifying where 
they're going to get the $4 billion that they're putting up. 
What's our progress in helping them do this?
    Mr. Beers. Sir, it's 3 years worth of money. And like this 
country, they appropriate on an annual basis. So to say that 
they haven't put all the money forward is to say that their 
process hasn't engaged in the second and third year yet.
    Mr. Tierney. Do you feel they're fully committed at least 
to date?
    Mr. Beers. I feel that the President of Colombia and the 
Government of Colombia is fully committed to funding this. And 
we certainly will be in discussions with them about providing 
this. But is the funding identified? No, it's not.
    Mr. Tierney. With respect to the Colombian National Police 
assuming control over the aerial eradication operations, what's 
the status on that? In the report they're indicating that there 
was some distance to go on that, that the plan had not been 
finally adopted by the Colombians and that we were still 
looking at a situation where we didn't know exactly what 
direction we were heading in.
    Mr. Beers. There are two parts to that process, sir. With 
respect to the discussions with the Government of Colombia the 
last draft of the nationalization plan remains with the 
Colombian National Police. And we have not received back from 
them their comments or final position with respect to the draft 
which we printed them some time ago.
    Having said that, and in fairness to everybody concerned, 
we have not identified the money that would be necessary to 
support that process because what we are talking about is 
maintaining the current eradication effort, and on top of that, 
transitioning that eradication effort from on the coca side 
what is primarily an American contract-supported eradication 
effort to a fully Colombian eradication effort.
    They fly a number of the planes, but we plan most of the 
missions and we fly most of the eradication aircraft but not 
the support aircraft in those missions.
    With respect to the opium poppy effort, it is now entirely 
a Colombian National Police effort. What we need to do now is 
work both of those issues in order to both ensure that we don't 
lose the effort that we are currently undertaking and planning 
to expand and at the same time increase the Colombian content 
to that effort. That is our objective and that's the direction 
we're moving in.
    Mr. Tierney. Thank you. Have we done anything about our 
oversight down there? The reports here indicate that some of 
the helicopters might be used for purposes other than 
counternarcotics and some of the fuel, a substantial amount of 
the fuel provided for counternarcotics may have been misused. 
Are we tightening up on the oversight?
    Mr. Beers. Yes, sir. We have done two things with respect 
to the fuel. Let me comment on that first. We have set up--we 
asked for this IG investigation. And we welcome the indication 
that we needed to be doing a better job because that's--this is 
an important issue. What we have done first is try to make sure 
that we have an accurate and easily retrievable reporting 
system about each of the transactions. They were not done as 
they should have been done in the past. Part of that was the 
shortage of personnel, part of that was it simply wasn't 
attended to properly.
    Second, we are hiring additional oversight personnel to 
make sure that, once, the data is available, we can in fact go 
back and interrogate that information and then go back to make 
sure that the information as delivered is in fact information 
that is real. So we take that as a serious charge to be dealt 
with and we have efforts under way to do that.
    Mr. Tierney. I thank you. I will yield the balance of my 
time to Mr. Turner because I know we will be called for a vote 
pretty soon. I know he has some questions to ask, so I thank 
you.
    Mr. Mica. Mr. Turner, please proceed.
    Mr. Turner. Mr. Chairman, I actually have a series of 
questions that I would be happy just to submit to Secretary 
Beers for the record and ask that they be answered and placed 
in as part of the record. And in the event the questions are 
beyond the scope of the State Department's knowledge, perhaps 
also I would ask that General Huber join in answering these 
questions. But they all relate to the procurement item, and I 
will be happy to submit them to have them answered as part of 
the record.
    Mr. Mica. Without objection, we'll submit them and they 
will be part of the record. I ask the witnesses to respond. Did 
you have anything else Mr. Turner? Madam Ranking. Mr. Ose.
    Well, I commented with Mrs. Mink that this has been a very 
frustrating experience for me over the past year, three-
quarters. And she as ranking member, we've got an extremely 
difficult situation at hand and we seem to be taking one step 
forward and two steps back. And I would please ask the 
witnesses if there are any changes in timetables, anything that 
you've testified before today that between now and the 
beginning of next year you keep the subcommittee posted. We 
want to know if there are any changes in delivery of this 
equipment, any further delays, anything we can assist with.
    Now the first money that was going down there, I think we 
called everyone in every 2 weeks the end of last year to try to 
make certain some of that moved forward. If we have to do that, 
we'll do that again. But we need to make certain that this is 
administered and accomplished in the way Congress intended and 
effectively. So we're counting on you and we ask you to respond 
to us.
    There being no further questions of this panel, I thank you 
and dismiss you at this time.
    Let me call our third and final panel which consists of one 
individual. That individual is Mr. Andrew Miller, who is acting 
advocacy director for Latin America and the Caribbean for 
Amnesty International. If we could have Mr. Miller come up. Mr. 
Miller, this is an investigation and oversight subcommittee of 
the Government Reform Committee of the House of 
Representatives. In that regard we do swear in our witnesses. 
If you have a lengthy statement, and I believe I've been 
provided with a rather lengthy statement and some background 
information upon request of the Chair and the committee, the 
entire statement and background will be made a part of the 
record. So if you would, I request in that regard, if you would 
please remain standing and let me swear you in. Raise your 
right hand.
    [Witness sworn.]
    Mr. Mica. The witness answered in the affirmative. Thank 
you.
    Mr. Miller, you're the only witness on this panel. Did you 
want this lengthy statement to be made part of the record?
    Mr. Miller. I would like for the lengthy statement to be 
made part of the record.
    Mr. Mica. Without objection, so ordered and you are 
recognized. We won't run the clock on you but if you could 
summarize and provide your testimony to the panel, I know they 
would be grateful. Thank you and please proceed.

STATEMENT OF ANDREW MILLER, ACTING ADVOCACY DIRECTOR FOR LATIN 
      AMERICA AND THE CARIBBEAN FOR AMNESTY INTERNATIONAL

    Mr. Miller. I would ask the chairman further that Human 
Rights Watch Amnesty International report that's attached to 
that to which I will be referring also.
    Mr. Mica. That was also part of my request.
    Mr. Miller. Thank you very much. Chairman Mica, members of 
the subcommittee, I am very pleased to be before you today. I 
am especially pleased to not be a member of the Clinton 
administration, a high ranking member of the administration who 
is supposed to be implementing Plan Colombia.
    I would just summarize my comments and I know your time is 
valuable and there are many things to do. I would like to 
address the human rights component of Plan Colombia, Amnesty 
International's concerns in Colombia.
    Primarily, when we think about the Plan Colombia we're 
concerned about what impact this is going to have on the human 
rights situation and in particular what message this sends to 
the Colombian military about their human rights performance.
    Going back many years, various international bodies, the 
United Nations and American Commission on Human Rights, Amnesty 
International, have been making detailed recommendations about 
what concrete steps need to be taken in order for human rights 
to be improved in Colombia. And unfortunately to date very few, 
if any, of those recommendations have been implemented by the 
Colombian state. And from the perspective of Amnesty 
International this highlights a lack of concrete political will 
to implement human rights in that country.
    Considering the U.S. military aid going to Colombia, we're 
concerned that aid itself might be involved in the commission 
of human rights violations or might be supporting military 
units who operate in the same area as the paramilitary units 
that work hand in hand. Amnesty International and many other 
organizations have extensively and overwhelmingly documented 
the links, the historic links and the current links between the 
Colombian military and paramilitary organizations.
    Along that line, we would like to mention considering the 
counternarcotics focus of the Plan Colombia that there are 
multiple groups within Colombia implicated in drug production, 
drug trafficking, etc., and as indicated in the GAO report, the 
paramilitaries are included in that group. So we're very 
concerned in addition to the human rights concerns that the 
plan itself focuses on one actor in a multiplicity of actors. 
And if indeed the objective is to eradicate drugs, etc., 
focusing on armed opposition groups solely and not on other 
actors that are seated with the state will not obtain that 
objective.
    Now this concern has been expressed by members of this 
committee for some time now. I believe the issue came about in 
committee, a subcommittee hearing in August of last year. 
Representative Mink submitted questions for the record. It 
again emerged in February of this year. And unfortunately, 
questions that have been put forth to the Clinton 
administration about the role of paramilitary groups and drug 
trafficking, drug production have not been answered to date.
    Now, one part of our testimony, and I believe you all have 
copies of a document which Amnesty International obtained 
through a Freedom of Information Act request, which indicates 
that as far back as 1993 the Defense Intelligence Agency 
Counternarcotics Division knew that main paramilitary leaders 
were heavily implicated in the drug trade and that in fact the 
Colombian state enthusiasm about going against them would be 
lessened by the fact that these paramilitary groups had similar 
goals, similar counterinsurgency goals fighting the Colombian 
guerrillas. We believe that this document has got to be simply 
the tip of the iceberg in terms of information between the 
Defense Intelligence Agency, between the DEA, the CIA and other 
intelligence gathering organisms of the U.S. Government. This 
has got to be the tip of the iceberg in terms of information 
that is known about the role of paramilitary groups in drug 
trafficking and human rights violations.
    So we're somewhat concerned by the fact that the 
administration has not responded to those questions, and we 
would hope that this subcommittee would continue pushing 
forward demanding answers to those.
    In closing, I'll simply say that in terms of the 
certification process that was congressionally mandated Amnesty 
International participated in that. We put together a joint 
document that we're submitting for the record and we outlined 
concrete steps that should be taken immediately by the 
Colombian state that would have a positive impact toward 
protection of human rights in Colombia. In particular, those 
steps are investigating people for whom there are credible 
allegations both within the Colombian military, Colombian 
military groups, armed opposition groups, carrying out civilian 
investigations into those individuals, suspending them if 
they're military, not dismissing them, arresting them if 
they're paramilitary armed opposition, holding those trials in 
civilian courts and actually sending them to jail.
    One indicator of Colombian state political will to address 
human rights violations is whether or not there are high level 
Colombian military officials in jail, because we know that some 
of them are the intellectual authors of political violence in 
Colombia that goes back decades. They're well known 
paramilitary leaders who operate openly. They appear on 
television. It's known where they are. It's known where they 
live. The state doesn't go after them. So once we see these 
individuals, trials, credible trials against them, those 
individuals in jail, that will be an indication that Colombia 
indeed has the will. Until that time Amnesty will continue to 
be very concerned about the human rights situation in Colombia 
and in fact will continue to expose the military component of 
Plan Colombia.
    At this time I would happy to take questions.
    [The prepared statement of Mr. Miller follows:]
    [GRAPHIC] [TIFF OMITTED] T5059.037
    
    [GRAPHIC] [TIFF OMITTED] T5059.038
    
    [GRAPHIC] [TIFF OMITTED] T5059.039
    
    [GRAPHIC] [TIFF OMITTED] T5059.040
    
    [GRAPHIC] [TIFF OMITTED] T5059.041
    
    [GRAPHIC] [TIFF OMITTED] T5059.042
    
    [GRAPHIC] [TIFF OMITTED] T5059.043
    
    [GRAPHIC] [TIFF OMITTED] T5059.044
    
    [GRAPHIC] [TIFF OMITTED] T5059.045
    
    [GRAPHIC] [TIFF OMITTED] T5059.046
    
    [GRAPHIC] [TIFF OMITTED] T5059.047
    
    [GRAPHIC] [TIFF OMITTED] T5059.048
    
    [GRAPHIC] [TIFF OMITTED] T5059.049
    
    [GRAPHIC] [TIFF OMITTED] T5059.050
    
    [GRAPHIC] [TIFF OMITTED] T5059.051
    
    [GRAPHIC] [TIFF OMITTED] T5059.052
    
    [GRAPHIC] [TIFF OMITTED] T5059.053
    
    [GRAPHIC] [TIFF OMITTED] T5059.054
    
    [GRAPHIC] [TIFF OMITTED] T5059.055
    
    [GRAPHIC] [TIFF OMITTED] T5059.056
    
    [GRAPHIC] [TIFF OMITTED] T5059.057
    
    [GRAPHIC] [TIFF OMITTED] T5059.058
    
    [GRAPHIC] [TIFF OMITTED] T5059.059
    
    [GRAPHIC] [TIFF OMITTED] T5059.060
    
    [GRAPHIC] [TIFF OMITTED] T5059.061
    
    [GRAPHIC] [TIFF OMITTED] T5059.062
    
    [GRAPHIC] [TIFF OMITTED] T5059.063
    
    [GRAPHIC] [TIFF OMITTED] T5059.064
    
    [GRAPHIC] [TIFF OMITTED] T5059.065
    
    [GRAPHIC] [TIFF OMITTED] T5059.066
    
    [GRAPHIC] [TIFF OMITTED] T5059.067
    
    [GRAPHIC] [TIFF OMITTED] T5059.068
    
    [GRAPHIC] [TIFF OMITTED] T5059.069
    
    [GRAPHIC] [TIFF OMITTED] T5059.070
    
    [GRAPHIC] [TIFF OMITTED] T5059.071
    
    [GRAPHIC] [TIFF OMITTED] T5059.072
    
    [GRAPHIC] [TIFF OMITTED] T5059.073
    
    [GRAPHIC] [TIFF OMITTED] T5059.074
    
    [GRAPHIC] [TIFF OMITTED] T5059.075
    
    [GRAPHIC] [TIFF OMITTED] T5059.076
    
    [GRAPHIC] [TIFF OMITTED] T5059.077
    
    [GRAPHIC] [TIFF OMITTED] T5059.078
    
    [GRAPHIC] [TIFF OMITTED] T5059.079
    
    [GRAPHIC] [TIFF OMITTED] T5059.080
    
    [GRAPHIC] [TIFF OMITTED] T5059.081
    
    [GRAPHIC] [TIFF OMITTED] T5059.082
    
    [GRAPHIC] [TIFF OMITTED] T5059.083
    
    [GRAPHIC] [TIFF OMITTED] T5059.084
    
    [GRAPHIC] [TIFF OMITTED] T5059.085
    
    [GRAPHIC] [TIFF OMITTED] T5059.086
    
    [GRAPHIC] [TIFF OMITTED] T5059.087
    
    [GRAPHIC] [TIFF OMITTED] T5059.088
    
    [GRAPHIC] [TIFF OMITTED] T5059.089
    
    [GRAPHIC] [TIFF OMITTED] T5059.090
    
    [GRAPHIC] [TIFF OMITTED] T5059.091
    
    Mr. Mica. Thank you, Mr. Miller. Mr. Miller, some of your 
testimony and some of the material you've submitted deals with 
some past atrocities committed by the right wing paramilitary. 
Has there been any improvement that Amnesty International has 
seen since the advent of the Pastrana administration? I mean, 
admittedly in the previous administration it was a pretty 
horrible situation. And it didn't seem that there were any 
overt attempts to clean up human rights violations. Is there 
any glimmer of hope?
    Mr. Miller. Well, essentially what--unfortunately, the 
situation continues to deteriorate on all sides. I was 
surprised to hear Representative----
    Mr. Mica. On all sides. Then the FARC and the ELN is also 
committing atrocities and human rights violations?
    Mr. Miller. Absolutely. You'll notice in the testimony that 
I refer to those and Amnesty International through the years 
has denounced those violations.
    I'd like to comment on the Pastrana administration. 
Essentially the tendency in Colombia has been that over time 
progressively the Colombian military itself seems to be getting 
out of the dirty war business. At the same time it's worth 
mentioning that there's a commensurate rise in violations 
carried out by paramilitary groups which often operate in 
heavily militarized zones. Amnesty International this year and 
in previous years has documented dozens and dozens of cases. 
The El Salado massacre is a high profiled case. It came out in 
the New York Times in July. There are numerous other massacres 
that have happened at the same time. In the packet that I have 
given there's a paper called Outsourcing Political Violence 
that lists a number of massacres in years past and in recent 
years carried out by paramilitary groups in the presence of 
military.
    Mr. Mica. So if you had a choice between giving assistance 
to the military or the National Police, I take it you would 
prefer the National Police?
    Mr. Miller. Well, it's worth mentioning that at the same 
time that there are the same kinds of allegations against the 
National Police, a direct commission of human rights 
violations. The National Police themselves are also implicated 
in the same way in the sense that they're not going after the 
paramilitaries. In many areas of Putumayo, in Caqueta, the 
National Police operate in areas where the paramilitaries also 
operate and they do not go after the paramilitaries either.
    Mr. Mica. Would your solution be to just withdraw all 
assistance?
    Mr. Miller. My solution would be to demand that concrete 
improvements be made. I mean the obstacle to these improvements 
is that the Colombian state actually has the desire to do them. 
And unfortunately, we're concerned that the assistance offers a 
green light that all the past administration and the Colombian 
militaries need to do is come up with a good public relations 
scheme and they're very good. The discourse is impeccable, but 
the concrete steps have not been taken, and we're concerned 
that they will not be taken as long as they continue to obtain 
their objectives.
    Mr. Mica. Let me just yield to Mr. Ose. Then I'll yield to 
the ranking member.
    Mr. Ose. Just for the record, back on June 23rd Chairman 
Gilman in his international report reported that the Colombia 
National Police had in fact gone into Catatumbo and basically 
attacked some of these right wing paramilitaries who were 
operating drug labs and illicit coca crops. I just want to get 
that on the record. I'll come back to it in my questioning. 
Thank you.
    Mr. Mica. Let me yield now to the gentlelady from Hawaii 
our ranking member, Mrs. Mink.
    Mrs. Mink. I appreciate, Mr. Miller, your attendance here 
this afternoon. I know you had very short notice in preparing 
your testimony. But I think the issues that you raise are very 
much in the minds of many of the Members who are concerned 
about the relevance of the Colombia drug production to the 
problems here in the United States. But we also have concerns 
about what the impacts will be to the people who live in 
Colombia and to what extent this huge infusion of military 
equipment, and so forth, will exacerbate their lives and make 
the human rights conditions much more difficult.
    When you say that the current administration has said all 
the right words and given all the right intentions with respect 
to really weighing in on this human rights question but that 
they have failed to perform, exactly what steps do you have in 
mind that the Pastrana administration must take in order to 
demonstrate to Amnesty International and others that they are 
prepared to do what is necessary to bring an end to this 
travesty of human rights that is occurring by both the military 
and the paramilitary groups?
    Mr. Miller. Well, as I mentioned, the international 
community has been making recommendations for years now but 
what the steps are in the joint document we outline exactly, 
using the congressional mandate.
    Mrs. Mink. Can you outline that for the record?
    Mr. Miller. Absolutely. Essentially to suspend military 
officers for whom there are credible allegations, which it's 
important to emphasize suspends as opposed to dismiss, because 
last year a number of high ranking military officers were 
dismissed but nothing is happening against them. They're 
operating freely and that's not a positive outcome.
    Mrs. Mink. What is the difference between a dismissal and a 
suspension? I noticed that in your testimony.
    Mr. Miller. The difference is dismissal simply means that 
they're let go, they're fired essentially but then they operate 
freely. A suspension means that they're held in administrative 
suspension, they're held by the military pending a trial. And 
it's important we mention that the trial be held in a civilian 
jurisdiction. The military justice system in Colombia 
essentially has proven itself as a mechanism to ensure impunity 
for members of the Colombian armed forces. So it's important 
that these people are suspended, they're held pending a 
legitimate trial, that the trial be carried forth, and that if 
indeed they are responsible for crimes under Colombian law, 
human rights crimes, that they be held accountable for this.
    Mrs. Mink. How many would you estimate are in this category 
of having been dismissed without having been brought to trial?
    Mr. Miller. Actually we name four or five of those in our 
report. We explicitly say that those people need to be brought 
to trial given the outstanding allegations against them. So I 
would say roughly four or five, four that I can think of off 
the top of my head, were suspended last year. There are a 
number of other generals who simply left over the years for 
whom there are very strong, credible allegations.
    Mrs. Mink. Anything else?
    Mr. Miller. I simply would mention that one important 
component is something that I mention in my testimony, is how 
U.S. aid is monitored and how the impacts of U.S. aid are 
monitored there. I think Congress can and must play a very 
important role in demanding that the administration report back 
explicitly about what the impacts have been in terms of human 
rights violations, in terms of any people who have been killed 
or any allegations against U.S.-supported units and including 
paramilitary activity in those same areas.
    Mrs. Mink. Earlier this afternoon Mr. Beers was asked a 
question with respect to the United States certifying that 
Colombia had met all the requirements with respect to receiving 
foreign assistance from the United States. And he testified 
that based upon the situation as it exists today that the 
United States could not certify and that there would have to be 
a waiver.
    Do you agree with that statement?
    Mr. Miller. I absolutely agree with that statement. We of 
course prepare this document in the context of the first 
certification discussions. The new discussions will be 
happening later on this month and we will be reviewing this 
document. Of course the joint document is what we will take to 
the State Department and say to them what concrete improvement 
has been made on these cases. At the same time we will probably 
lump on the range of other cases that have happened in the 
meantime or happened in the past. There's no lack of cases of 
human rights violations in Colombia.
    Mrs. Mink. What are the specific grounds which allows the 
President to waive the requirement of Congress that human 
rights has to be certified before foreign aid can be given?
    Mr. Miller. As per the law they're on national security 
grounds.
    Mrs. Mink. What are the national security grounds that 
support a waiver in this instance?
    Mrs. Mink. I don't believe that they are specifically--I 
don't believe that the President has to specifically say and I 
don't believe in this recent--when he did waive, I don't think 
he offered specific reasons. I believe he simply said for 
national security reasons and went on to state that he believed 
that improvements were being made.
    Mrs. Mink. But my question to you is do you see any 
national security basis for a waiver?
    Mr. Miller. I believe that's the President's prerogative. 
But you know Amnesty International believes that it's very 
grave that these have simply been set aside by the President 
and we believe it sends a very negative message in terms of 
President Clinton's commitment to human rights.
    Mrs. Mink. Absent a finding of a national security basis, 
there would be no basis for a waiver, isn't that true?
    Mr. Miller. That is true.
    Mrs. Mink. Thank you.
    Mr. Mica. The gentleman from California, Mr. Ose.
    Mr. Ose. Thank you, Mr. Chairman. Mr. Miller, when you talk 
about the Colombian National Police, are we engaged with the 
entire police force? I mean is the U.S. Government working with 
the entire Colombian National Police force?
    Mr. Miller. I don't know the answer to that question.
    Mr. Ose. The reason I bring it up is that I mean, I 
understand your concern that we all share about the atrocities, 
but I also know that in some instances elsewhere, at least 
historically, one group might be committing atrocities while 
another might not. Now are we working with the group, for 
instance, that is or isn't or do you know?
    Mr. Miller. I think that would be a good question for the 
State Department. I can't think of units of the National Police 
which are not allowed to receive aid under Leahy provisions.
    Mr. Ose. It's my understanding that our aid is going to the 
counternarcotics police force section only. Are there any 
allegations of atrocities against them?
    Mr. Miller. I cannot think of allegations of atrocities 
again the counternarcotics section of the National Police. But 
I don't believe that--I haven't seen allegations.
    Mr. Ose. So as far as this aid goes, we're doing a pretty 
good job in terms of protecting human rights as affected by our 
partners in this effort, I mean if I understand your response 
correctly.
    Mr. Miller. Yeah, my response is simply that I don't 
believe that there are specific units which under Leahy 
provisions are not allowed to receive that aid. So that would 
indicate that at least by State's judgment there weren't 
credible allegations against these counternarcotics units and I 
don't believe that Amnesty has specific information right now 
of credible allegations against those units either.
    Mr. Ose. You may have it about other sections of the 
Colombian National Police, but not about the people that we're 
working with.
    Mr. Miller. What comes to mind are police units in urban 
areas which are involved in social cleansing operations. That's 
what comes to mind. But that I believe would be different than 
the units to which you are referring.
    Mr. Ose. OK. I just wanted to clarify that. Thank you, Mr. 
Chairman.
    Mr. Mica. Thank you. Did you have any additional questions? 
No additional questions.
    Well, Mr. Miller we want to thank you. We appreciate the 
work that Amnesty International does in acting as the 
conscience for the world in many difficult international 
situations and atrocities in human rights that you call such 
eloquent attention to. We look forward to working with you. We 
appreciate your coming before our subcommittee today.
    There being no further business before the subcommittee, 
I'll excuse you, Mr. Miller, and----
    Mr. Miller. Thank you very much.
    Mr. Mica. We are leaving the record open for a period of 2 
weeks for additional comments. Appreciate participation of the 
Members today and our witnesses. This meeting of the 
Subcommittee on Criminal Justice, Drug Policy, and Human 
Resources stands adjourned.
    [Whereupon, at 5:10 p.m., the subcommittee was adjourned.]

                                   - 
</pre></body></html>
